Not Precedential
United States Court of Appeals for The Third Circuit
No. 18-2007
Edward J. Mierzwa, Appellant
v
Arkadiusz M. Dudek; Diane Gaffney; James Gaffney; United
States of America; John Does 1-100, Employee of United
States Department of Justice as an individual and official
and personal capacities; Jane Does 1-100, Employee of
United States Department of Justice as an individual and
official and personal capacities
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-17-cv-02625)
District Judge: Honorable Madeline Cox Arleo
Submitted Pursuant to Third Circuit LAR 34.1(a)
November 1, 2018
Before: MCKEE, COWEN, and ROTH, Circuit fudges
(Opinion filed: November 29,2019)
Opinion - This disposition is not an opinion of the full Court
and pursuant to I.O.P. 5.7 does not constitute binding
precedent. Per Curiam.
Edward Mierzwa (Appellant) appeals the District Court's
order granting Appellee Arkadiusz Dudek’s motion for
judgment on the pleadings, Appellees James and Diane
Gaffney’s motion to dismiss, and Appellees United States'
motion to dismiss. Appellant also appeals the Magistrate
Judge's orders terminating, as moot, his motion for
rescheduling and motion for change of venue. Dkt. #42,53.
Appendix D
17

For the following reasons, we will affirm. Writing primarily
for the parties, who arc familiar with the extensive record
in this case, we review only those facts that are especially
pertinent to our analysis. Appellant brought suit under 42
U.S.C. § 1983 for various alleged constitutional violations;
he also brought a claim under the Federal Tort Claims Act
(FTCA). The events giving rise to the claims against the
Gaffneys stem from trials held in July 2006 and August
2009. Appellant argued the Gaffneys made "an endless
series of false statements" against him in their criminal
harassment claims and testimony at trial. Similarly, the
events giving rise to the claims against Police Officer
Dudek were connected to the Gaffneys' August 2009
criminal harassment lawsuit, in which Officer Dudek also
allegedly testified falsely against Appellant. Against the
United States, Appellant argued violations of section 1983
for failing to investigate and intervene in the abovereferenced court proceedings with the Gaffneys. Appellant
further claimed violations under the FTCA for alleged
negligence and other various violations committed by the
United States and John and Jane Doe federal employees.
We have jurisdiction to review the District Court's order
pursuant to 28 U.S.C. § 1291.1
i•• Generally,

an order which dismisses a complaint without prejudice
is neither final nor appealable because the deficiency maybe corrected
by the plaintiff without affecting the cause of action." Borelli v. City of
Reading. 532 F.2d 950, 951 (3d Cir. 1976) (per curiam). Here, we
conclude that the District Court intended its April 6. 2018 order to be
final, despite the inclusion of a "without prejudice" modifier, as the
Court subsequently terminated Appellant's motion for a scheduling
conference as moot. Dkt #42. In any event, even if the order was not a
final order when issued, we believe it is now. Appellant has elected to
stand on his amended complaint because he immediately appealed the
order and did not attempt to amend or refile his complaint. Borelli, 532
F.2d at 95 1-52; Frederico v. Home Depot, 507 F.3d 188,193 (3d Cir.
2007) (holding a dismissal order "without prejudice" was a final order
because the plaintiff elected to stand on her original complaint rather
Appendix D
than amend or refile it).
18

We review the District Court’s grant of the motion to
dismiss pursuant to Rule 12(b)(6) de novo. Newark Cab
Ass'n v. City of Newark. 901 F.3d 146,151 (3d Cir. 2018).
“To survive a motion to dismiss, a complaint must contain
sufficient factual allegations, taken as true, to 'state a claim
to relief that is plausible on its face.” Fleisher v. Standard
Ins., 679 F.3d 116, 120 (3d Cir. 2012) (quoting Bell Atl.
Corp. v. Twomblv. 550 U.S. 544, 570 2007)). We accept all
factual allegations in the complaint as true and construe
those facts in the light most favorable to the plaintiff. Id.
Likewise, we apply the same standards when reviewing an
order granting judgment on the pleadings pursuant to Rule
12(c). Hanover Ins. Co. v. Urban Outfitters. Inc., 806 F.3d
761, 764 (3d Cir. 2015). "We may affirm a district court for
any reason supported by the record." Brightwell v.
Lehman. 637 F.3d 187,191 (3d Cir. 2011). As a threshold
matter, we first note that pursuant to Rule 28 of the
Federal Rules of Appellate Procedure and Third Circuit
Local Appellate Rule 28.1, "appellants are required to set
forth the issues raised on appeal and to present an
argument in support of those issues in their opening brief."
Kost v. Kozakiewicz. 1 F.3d 176,182 (3d Cit. 1993). "It is
well settled that if an appellant fails to comply with these
requirements on a particular issue, the appellant normally
has abandoned and waived that issue on appeal and it need
not be addressed by the court of appeals" Id- Indeed, to be
preserved, all arguments must be supported specificalLy
by "the reasons for them, with citations to the authorities
and parts of the record on which the appellant relies." Fed.
R. App. P. 28(a)(8)(A). Consequently, “we have
consistently refused to consider ill-developed arguments
or those not properly raised and discussed in the appellate
briefing." Barna v. Bd. of Sch. Directors of Panther Valiev
Sch. Dist. 877 F.3d 136, 145—46 (3d Cir. 2017) (listing
cases).
Appendix D
19

Although we construe pro se filings liberally, this policy
has not prevented us from applying the waiver doctrine to
pro se appeals. See. e.g., Emerson v. Thiel Coll.. 296 F.3d
184, 190 n.5 (3d Cir. 2002) (per curiam); Gambino v.
Morris. 134 F.3d 156,161 n.10 (3d Cit. 1998); see also Mala
v. Crown Bay Marina. Inc.. 704 F.3d 239,245 (3d Cir. 2013)
(noting that pro se litigants 'must abide by the same rules
that apply to all other litigants"). Here, Appellant's
informal brief does little to advance any argument in
opposition to the District Court’s holdings. Rather,
Appellant takes issue with various "kangaroo court antics"
allegedly committed by the District Court with regard to
the filings below, going so far as to suggest a conspiracy
among court personnel for purposes of defeating his
action. Appellant Br. 40-42. Furthermore, to the extent
Appellant does touch on the relevant issues in his brief, he
does so in a conclusory manner, without any citation to
authority or the record. While we are mindful of
Appellant’s pro se status, we conclude that he has
abandoned and waived much with regard to this appeal, as
we will note below. We first turn to Appellant's section
1983 claims against the Gaffneys and Officer Dudek. The
District Court held that these claims were time-barred.
Appellant presents no argument challenging this;
accordingly, he has waived any issue with the District
Court’s holding. F.D.I.C. v. Deglau. 207 F.3d L53, 169 (3d
Cir. 2000) (finding an issue not raised in opening brief on
appeal was waived and would not be addressed).
Turning to Appellant's claims against the United States and
the John and Jane Doe federal employees, the District Court
held that Appellant failed to comply with the
administrative and procedural requirements to properly
bring a claim under the FTCA. We agree.
Appendix D

20

Federal courts cannot assume jurisdiction over FTCA
claims until (1) the plaintiff has initially presented the
claim to the appropriate federal agency within two years
of the date the claim accrues; and (2) the agency has either
denied the claim or has failed to make a final disposition
within six months of the plaintiffs presentation of the
claim. 28 U.S.C. § 2675(a); 28 U.S.C. § 2401(b); see also
White—Squire v. U.S. Postal Serv.. 592 F.3d 453, 457 n.3
(3d Cir. 2010). Here, Appellant does not present much
argument showing he has satisfied the procedural
requirements in order to bring a claim under the FTCA,
other than to argue generally that the necessity of the SF95 Form with a sum certain for damages is "insignificant"
at this juncture, and that he satisfied the procedural
requirements by way of various letters in 2007 to the
Department of Justice. We are inclined to view Appellant's
conclusory arguments, without any citation to authority or
the record, as waiving the issue. Doeblers' Pa. Hybrids. Inc.
v. Doebler. 442 F.3d 812, 821 n.10 (3d Cir. 2006) (noting
that "passing and conclusory statements do not preserve
an issue for appeal"). Regardless, we conclude that even if
Appellant had fulfilled the procedural requirements via his
2007 Letters, his claims would be time barred: Appellant
did not initiate his lawsuit until April 18, 2017—well
outside the two-year time period for bringing suit. See
White—Squire. 592 F.3d at 457 n.3. Additionally, as noted
by the District Court, Appellant's section 1983 claims
against the United States fail, as neither the United States
nor federal actors, such as employees, can be sued under
section 1983. See Accardi v. United States. 435 F.2d 1239,
1241 (3d Cir. 1970); Polskv v. United States. 844 F.3d 170,
173 (3d Cir. 2016). To the extent Appellant attempted to
sue John and Jane Doe federal employees under Bivens,2 he
2 Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics.
403 U.S. 388 [1971).
Appendix D
21

has not challenged the District Court’s holding that he
failed to articulate the employees' personal, affirmative
involvement in the deprivation of a constitutionally
protected right. Accordingly, he has abandoned that claim.
See Kost. lF.3d at 182. Finally, we turn to the appeal of the
Magistrate Judge's April 17, 2018 order terminating
Appellant's rescheduling motion and his May 15, 2018
order terminating Appellant's change of venue motion
(Dkt. #42, 53). It is well established that a district court
may refer certain pretrial matters to a magistrate judge for
disposition, and that any appeal from the magistrate
judge’s order is to the district court. See 28 U.S.C.
§ 636(b)(1); Fed. R. Civ. P. 72(a). “As a general rule, we do
not consider on appeal issues that were not raised before
the district court in the absence of exceptional
circumstances" Cont'l Cas. Co. v. Dominick D'Andrea. Inc..
150 F.3d 245. 251 (3d Cir. 1998). Here, Appellant did not
appeal the Magistrate Judge’s April 17, 2018 order to the
District Court, and Appellant points to no exceptional
circumstances with respect to this order; accordingly, we
decline to review it. Moreover, the Magistrate Judge's May
15, 2018 order was entered after Appellant's notice of
appeal. Consequently, Appellant should have not only
appealed this to the District court to avoid waiver, but he
was also required to file an amended notice of appeal to
give us jurisdiction to review it. See id..: Union Pac. R. Co.
v. Greentree Transp. Trucking Co.. 293 F.3d 120, 126
(3dCir. 2002) (citing Fed. R. App. P. 4(a)(4)(B) (ii)).
Appellant did neither; thus, we cannot review it
For all of the foregoing reasons, we will affirm the District
Court’s judgment.3

3 Appellant’s Motion for Participation in the Appellate Mediation
Program Pursuant to LA.R. 33.0 is denied.
Appendix D
22

Office of The Clerk
United States Court of Appeals for The Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia. PA 19106-1799
Website: www.ca3.uscourtsgov
Patricia S. Dodszuweit, Clerk
Telephone: 215-597-2995
January 21, 2020
Mr. William T. Walsh
United States District Court for the District of New Jersey
Martin Luther King Jr. Federal Building & U.S. Courthouse
50 Walnut Street
PO Box 999
Newark, NJ 07102
RE: Edward Mierzwa v. Arkadiusz Dudek, et al
Case Number: 18-2007
District Court Case Number: 2-17-cv-02625
Dear District Court Clerk,
Enclosed herewith is the certified judgment together with
copy of the opinion in the above captioned case(s). The
certified judgment is issued in lieu of a formal mandate and
is to be treated in all respects as a mandate. Counsel are
advised of the issuance of the mandate by copy of this
letter. The certified judgment is also enclosed showing
costs taxed, if any.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/Laurie Case Manager
267-299-4936
cc: Daniel R. Bevere, Kruti Dharia, Edward J. Mierzwa, J. Andrew Ruymann
Appendix E
23

United States Court of Appeals for The Third Circuit
No. 18-2007
Edward J. Mierzwa, Appellant
v

Arkadiusz M. Dudek; Diane Gaffney; James Gaffney; United
States of America; John Does 1-100, Employee of United
States Department of Justice as an individual and official
and personal capacities; Jane Does 1-100, Employee of
United States Department of Justice as an individual and
official and personal capacities
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-17-cv-02625)
District Judge: Honorable Madeline Cox Arleo
Submitted Pursuant to Third Circuit LAR 34.1(a)
November 1, 2018
Before: MCKEE, COWEN, and ROTH, Circuit fudges
JUDGMENT
This cause came to be considered on the record from the
United States District Court for the District of New Jersey
and was submitted pursuant to Third Circuit LAR 34.1(a)
on November 1, 2018. On consideration whereof, it is now
hereby ORDERED and ADJUDGED by this Court that the
judgment of the District Court entered April 6, 2018, be
and the same is hereby affirmed. Costs taxed against the
Appellant. All of the above in accordance with the opinion
of this Court.
ATTEST:
s/ Patricia S. Dodszuweit, Clerk
Dated: November 29,2019
Certified (seal)
Teste: s/ Patricia S. Dodszuweit, Clerk, United States Court
of Appeals for The Third Circuit
Appendix F
Dated: January 21, 2020
24

Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (201) 342-4840 «« NOTE NEW TELEPHONE NO. »»
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
Motion for Participation in The Appellate Mediation
Program Pursuant to L.A.R. 33.0
NOTICE IS HEREBY GIVEN that Movant, Edward J.
Mierzwa, the Appellant in this appeal hereby appeals to the
United States Court of Appeals for The Third Circuit to
grant Order for Referral of Matters to Mediation by a Judge
or Panel of the Court, pursuant to L.A.R. 33.4 and L.A.R.
33.6, Assigning Counsel to Appellant for Purposes of
Mediation.
/s/Edward J. Mierzwa, Movant/Appellant
Dated this 22nd of October 2019

Appendix G
25

Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (201) 342-4840 «« NOTE NEW TELEPHONE NO. »»
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
Brief in Support of Participation in The Appellate
Mediation Program Pursuant to L.A.R. 33.0
[Note: Diane Gaffney and James Gaffney are Non-Participating Parties
in the Appeal]

To: Honorable Judges of the United States Court of Appeals
for the 3rd Circuit
The purpose of this Motion is to: (1) pursue amicable
resolution, in full or in part; (2) facilitate settlement, in full
or in part; (3) assist in the expeditious handling of the
appeal. Leave of the Court is sought by Appellant,
appearing pro se, to pursue these remedies with the
assistance of appointed counsel. In bad faith, a quandary
of sorts was proliferated by the Principal Officers of the
Lower Court causing a mistrial. Without good cause or
reason,
Appendix G
26

the pre-trial proceedings were bastardized with the
falsification of records, deviation from court rules, the
willful and wanton disregard of the Canons of the Court; all
for the purpose of promulgating institutional bias, causing
unwarranted emotional distress and furthering the
injustices and harms already inflicted. Most importantly,
the merits of the case exceeded the standards set forth in
the Federal Rules of Civil Procedure; all being properly
presented and filed within the statute of limitations. In the
interests of justice and judicial economy, movant
respectfully requests the leave of the court to pursue
mediation.
/s/Edward J. Mierzwa, Movant/Appellant
Dated this 22nd of October 2019
Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (201) 342-4840 «« NOTE NEW TELEPHONE NO. »»
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
Certification of Mailing
Appendix G
27

Proof of Mailing: I, the undersigned mailed via USPS
first class, the following documents: Motion for
Mediation & Brief and Certification of Mailing dated,
22 October 2019, to:
Patricia S. Dodszuweit • Clerk, USCA for the 3d Circuit
21400 US Courthouse
601 Market Street • Philadelphia, PA 19106-1790
Kruti D. Dharia, AUSA • U.S. Department of Justice
970 Broad Street • Room 700
Newark, New Jersey 07102
Attorney of Record for: USA, John & Jane Doe(s)
Note: USA substituted for the named Attorney
Generals & US Attorneys DNJ
Piro, Zinna, Cifelli, Paris & Genitempo, L.L.C.
360 Passaic Street • Nutley, New Jersey 07110
Attorney of Record for: Arkadiusz M. Dudek
Diane Gaffney
49 Scudder Street • Garfield, New Jersey 07026-2557
Non-participating party
James Gaffney
60 Bloomingdale Avenue • Garfield, New Jersey 07026
Non-participating party
/s/Edward J. Mierzwa, Movant/Appellant
Dated this 22nd of October 2019

Appendix G
28

Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States Court of Appeals for The Third Circuit
Civil Action
Reply Brief
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
United States Court of Appeals for The Third Circuit
Case No.: 18-02007
Mierzwa v. Dudek
To: Clerk
1) Motion by Appellant for Extension of Time to File Reply
Brief. The foregoing motion is granted. Appellant's reply
brief must be filed and served within fourteen (14) days of
the date of this Order. Pursuant to 3d. Cir. L.A.R. 31.4, only
one extension of time to file a reply brief may be granted.
For the Court,
s/ Patricia S. Dodszuweit, Clerk
Dated: July 26, 2018
JK/cc: Edward J. Mierzwa, Daniel R. Bevere, Esq. Kruti Dharia, Esq.
{. Andrew Ruymann, Esq.
Appendix H
29

Respectfully Submitted to The Honorable Judges cf The
United States Court cfAppeals for The Third Circuit:
Appellant has submitted an Informal Brief citing key
issues, namely the case relevance and the applicability of
the Continuing Torts Doctrine; also, a myriad of injustices
intentionally caused by Officers of The United States
District Court for The District of New Jersey, all for
wrongful purposes and without regard for the
Constitutionally guaranteed Civil Rights accorded to this
Appellant. The proceedings of the Court Below evidence
the grave issue of Fraud Upon the Court. Federal Rules of
Civil Procedure, Rule 60(b) addresses grounds for relief
from a final judgment, order or proceeding. This appeal is
essentially a motion for relief through this trial de novo
seeking reversal of Orders, ECF No. 40, ECF No. 42 and ECF
No. 53; and to remand matters concerning the John/Jane
Does of the United States Department of Justice for
appropriate magisterial administration regarding
Discovery and pre-trial preliminaries. It is well evidenced
that the judicial process was subjected to tampering, at all
levels, with within The United States District Court for The
District of New Jersey, thus justifying an Order for Change
of Venue and granting this Appellant Leave of the Court to
File Documents Electronically. Entries of Default are
warranted regarding Defendant(s) Arkadiusz M. Dudek,
James Gaffney and Diane Gaffney, for waiving Defendant
rights to answer or move accordingly. Respondent, Daniel
R. Bevere, Esq. a partner of Piro, Zinna, Cifelli, Paris and
Genitempo, LLC submitted an Opposition Brief on behalf of
Appellee, Arkadiusz M. Dudek attempting to: (1)
controvert the Statute of Limitations and challenge the
validity of the Continuing Torts Doctrine as it applies to
this case; (2) mislead the Court regarding Absolute
Immunity for Appellees' inflammatory statements during
a Municipal Court hearing commencing August 27, 2009.
Appendix H
30

For reasons unknown, Appellee, Arkadiusz M. Dudek was
called to testify in 2009 for a matter that was entirely
adjudicated in 2006. Prior to this appeal, the points
currently reprised by Respondent, Daniel R. Bevere, Esq.
were twice submitted to the trial court, see ECF No. 6 and
ECF No. 32; in opposition, these matters were fully
addressed by Appellant, see ECF No. 11 and ECF No. 35.
Respondent, Kruti D. Dharia, Assistant United States
Attorney submitted a Motion to File a Supplemental Index
for reason that Appellant was granted Leave of The Court
to Proceed on the Original Record and to Waive the
Requirement of Transcripts. On 05 June 2018, Appellant
filed an Informal Brief that fully comported with the
U.S.C.A. Order, dated 23 May 2018; the Brief was not cited
for any filing deficiencies. The following table was
compiled in less than one hour and certainly not worthy of
a two-week filing extension that was obtained by
Respondent by misleading the U.S.C.A. regarding
Appellant's verbal consent, see Appellant's letter to Office
of U.S.C.A. Clerk, dated 13 July 2018.
Submissions
of
Supplemental
Appendix
Notice of Appeal
[updated]
Amended Complaint

Court Records on Appellee
File
Informal Brief and SA00001
ECF No. 50
Leave to Proceed on SA00003
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk and ECF No.
24
Appendix H
31

Declaration of Elijah F. Leave to Proceed on SA00130
Jenkins
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk and ECF No.
18
Order, dated 06 April Informal
Brief, SA00132
2018
Leave to Proceed on
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk and ECF No.
40
Order, dated 17 April Informal
Brief, SA00136
2018
Leave to Proceed on
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk and ECF No.
42

Appendix H
32

Brief, SA00137
Order, dated 15 May Informal
Leave to Proceed on
2018
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk and ECF No.
53

USDC Docket Sheet

Informal
Brief, SA00138
Leave to Proceed on
Original
Record
Granted,
USDC
Certified Copies of
Record/Docket
Sheet Transmitted
by the Office of
Clerk

The belated Opposition Brief reprises the submissions to
the trial court, see ECF No. 18 and ECF No. 34; in
opposition, these matters were addressed by Appellant,
see ECF No. 35. The Amended Complaint, ECF No. 24,
offsets the concerns raised by Adversary regarding ECF
No. 18. The wrongdoings of United States employees
working within the United States Department of Justice
were flagged by the Appellant in the Exhibits section of the
Amended Complaint. The pleadings and exhibits provide
the impetus to promptly pursue Discovery as it is evident
that tangible results would be unearthed. Actionable
claims remain unresolved and need to be properly
adjudicated. It is disturbing that the United States
Department of Justice would direct Respondent, Kruti D.
Dharia, Assistant United States Attorney to pursue a swift
dismissal via deceptive means
Appendix H
33

for the sole purpose of thwarting Discovery within a sham
proceeding. Referring to ECF No. 18, the trial court was
reminded that "Plaintiff has brought this action under the
Federal Tort Claims Act against eight former high-ranking
officials of the Department of Justice: Former Attorney
Generals of the United States John Ashcroft, Alberto
Gonzalez, Paul Clement, Peter Keisler and Michael
Mukasey; and former United States Attorneys for the
District of New Jersey Christopher Christie, Ralph Marra,
Jr. and Paul J. Fishman...who were working within the
scope of their employment at the time of the events alleged
in the Complaint." It should be noted that, in the absence of
an order, named Defendants were terminated within the
original Complaint by the Office of the U.S.D.C. Clerk.
Respondent, Kruti D. Dharia, Assistant United States
Attorney postulates that compromising Constitutionally
guaranteed Civil Rights is a discretionary function;
perhaps in a shameful attempt to substitute "equal
protection of the laws" with "at the whim and abuse of
discretion of high-ranking officials of the Department of
Justice". Collusion amidst the US Attorney, John/Jane
Does, Office of the Inspector General, Office of Professional
Responsibility, Office of Civil Rights Division of the
Department of Justice is not speculative; as the USDOJ
allowed State of New Jersey officials to commit heinous
crimes against this Appellant under the color of law &
authority. In lieu of pursuing third party claims and
holding accountable the vilely corrupt State of New Jersey
officials responsible for their sordid prosecutorial and
judicial misdeeds emanating from the cover up a police
brutality incident committed by errant, psychopathic
police;
Appendix H

34

Respondent, Kruti D. Dharia, Assistant United States
Attorney opted to hinder Appellant’s right to redress the
wrongs of the United States Department of Justice with
frivolous filings resulting in the unconscionable dismissal
of this civil action in the trial court and brazenly seeking
affirmation by the U.S.C.A.
I certify that the foregoing statements are true. I am aware
that if any of the foregoing statements made by are
willfully false, I am subject to punishment.
Dated this 09th of August 2018
/s/Edward J. Mierzwa, Appellant
Appendix H

Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
Informal Brief
Appendix I
35

Please Note that on 23 May 2018, Leave of the United
States Court of Appeals for The Third Circuit has been
Granted to Proceed on the Original Record and Waiving the
Requirement for Transcripts.
1.

Jurisdiction

Appellant appeals: (1) the dispositive Order, ECF No. 40,
dated 06 April 2018, entered into the record on 09 April
2018, signed by the Hon. Madeline Cox Arleo, U.S.D.J. of the
District of New Jersey; (2) Order, ECF No. 42, dated 17
April 2018, signed by the Hon. Steven C. Mannion, U.S.M.J.
of the District of New Jersey with regard to Motion to
Vacate Order Staying Discovery, ECF No. 23, dated 24
August 2017 and scheduling the mandatory Rule 16
conference; (3) Order, ECF No. 53, dated 15 May 2018,
signed by the Hon. Steven C. Mannion, U.S.M.J. of the
District of New Jersey with regard to the denial of Motion
for Change of Venue and Leave of Court to File
Electronically. Appellant filed a Motion for Interlocutory
Appeal in this matter and upon further review, it was
determined that Order, ECF No. 40, entered in this action
on the 06th day of April 2018 was final and dispositive in
nature. In a letter to the USDC Clerk, the USCA specified
that the docketing date shall be 26 April 2018, see ECF No.
45. Appellant submitted a Notice of Appeal to the Clerk of
the USDC for the District of New Jersey on 07 May 2018
and was serviced upon all parties, as per Certification of
Mailing dated 07 May 2018. copies attached on pages
following:

Appendix I
36

Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Plaintiff/Appellant
vs.
John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Defendant/Appellee(s)
Notice of Appeal
With Regard to Civil Action, Docket No. 2:17-CV-2625MCA-SCM, Filed On 13 April 2017 In The USDC, District Of
New Jersey, Vicinage of Newark, Presided by Hon.
Madeline Cox Arleo, U.S.D.J. Assisted by Hon. Steven C.
Mannion, U.S.M.J.
Notice is hereby given that Edward J. Mierzwa, the
Plaintiff/Appellant in this Civil Action, Docket No. 2:17-CV2625-MCA-SCM, hereby appeals to the United States Court
of Appeals for The Third Circuit from Order, CM/ECF No.
40, entered in this action on the 06th day of April 2018.
Further note that Edward J. Mierzwa, the Plaintiff/
Appellant has previously filed a Motion for Interlocutory
Appeal in this matter; and upon further scrutiny, it was
determined that Order, CM/ECF No. 40, entered in this
action on the 06th day of April 2018 was final and
dispositive in nature.
Appendix J
37

In a letter to the USDC Clerk, the USCA specified that the
docketing date shall be 26 April 2018, see CM/ECF No. 45.
Copy(s) cf Order and Motion for Interlocutory Appeal are
attached.
Dated this 07th of May 2018.
/s/Edward J. Mierzwa, Plaintiff/Appellant
Appendix J
Stamped by: Clerk, United States District Court District cf
New Jersey, Received 2018 APR 18, A 11:53
Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Plaintiff/Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Defendant/Appellee(s)
Notice of Motion for Leave to File Interlocutory Appeal
With Regard to Civil Action, Docket No. 2:17-CV-2625MCA-SCM, Filed On 13 April 2017 In The USDC, District Of
New Jersey, Vicinage of Newark, Presided by Hon.
Madeline Cox Arleo, U.S.D.J. Assisted by Hon. Steven C.
Mannion, U.S.M.J. and Motion for Stay of Proceedings
Pending Appeal
Appendix K

38

PLEASE TAKE NOTICE that Movant, Edward J. Mierzwa,
the Plaintiff/Appellant in this matter moves ex. parte
before the Hon. Madeline Cox Arleo, U.S.D.J. for the purpose
of granting an Order for Leave of the Lower Court to file an
Interlocutory Appeal before the United States Court of
Appeals for The Third Circuit with regard to Civil Action
No.:2:17-cv-2625 and Granting a Stay of Lower Court
Proceedings Pending Appeal. This motion is made
pursuant to the provisions of 28 U.S.C. § 1292 in
connection with Interlocutory Decisions.
Dated this 18th of April 2018
/s/Edward J. Mierzwa, Plaintiff/Appellant, Movant
Handwritten Notation: Dated this 30th of April 2018
This motion is resubmitted for filing. Original copy was
misplaced by USDC, Office of the Clerk. Respectfully
Resubmitted, /s/Edward J. Mierzwa
Appendix K
NOT FOR PUBLICATION
United States District Court District of New Jersey
Civil Action No. 17-2625
Edward J. Mierzwa, Plaintijf, v. John Ashcroft, et al.,
Defendants
Order
This matter having come before the Court

Appendix L

39

on Defendant United States' Motion to Dismiss, ECF No. 34,
Defendants Diane Gaffney and James Gaffney’s (the
"Gaffneys") Motion to Dismiss, ECF No. 33,1 Defendant
Arkasiusz Dudek's ("Dudek”) Motion for Judgment on the
Pleadings, and Plaintiff Edward J. Mierzwa’s ("Plaintiff)
Motion for Judgment on the Pleadings, ECF No. 36; and it
appearing that Plaintiff s Amended Complaint, ECF No. 24,
alleges violations 42 U.S.C. § 1983 against Defendants
Arkadiusz Dudek, James Gaffney, Diane Gaffney, 1HJJ2-8,
and, along with a Federal Tort Claims Act count, against the
United States of America and various "John/Jane Doe”
federal employees; and it appearing that the Supreme
Court has held that claims under Section 1983 are best
denominated as personal injury actions and are therefore
controlled by a state's statute of limitations for personal
injury actions, Wilson v. Garcia. 471 U.S. 261 (1985), and
"in New Jersey that statute is N.J.S.A. 2A: 14-2, which
provides that an action for an injury to the person caused
by a wrongful act, neglect, or default must be convened
within two years of accrual of the cause of action,” Brown
v. Folev. 810 F2d 55, 56 (3d. Cir. 1987); and it appearing
that the events giving rise to Plaintiffs claim against Police
Officer Dudek occurred in 2009 when Officer Dudek
purportedly gave false testimony against Plaintiff in a
criminal matter; and it appearing that the events giving
rise to Plaintiffs claims against James and Diane Gaffney,
private individuals, occurred as a result of their allegedly
false claims and false testimony against Plaintiff in
connection with trials held on July 27,2006 and August 27,
2009;
i

Although docketed as an answer, the Gaffneys’ joint response
includes the following language: "Motion To Dismiss Amended
Complaint With Prejudice" and “Motion To Dismiss Civil Suit Due To
Statute Of Limitations." The Court is mindful of the Gaffneys' pro se
status and construes the response as a Motion to Dismiss Plaintiff s
Complaint pursuant to Fed. R. Civ. P. 12(b](6j.
Appendix L
40

and it appearing that Plaintiff argues (1) the claims,
together, constitute a continuing violation2 and (2] that the
statute of limitations tbr the continuing violation did not
begin to run until April 17,2015, when the Superior Court
of New Jersey vacated a no contact order that purportedly
came about as a result of the alleged wrongdoing; and it
appearing that, even assuming its applicability here, the
"focus of the continuing violations is on affirmative acts of
the defendants," Cowell v. Palmer Twp.. 263 F.3d 286,293
(3d Cir. 2001); and it appearing that the no contact order
was, at best, a continuing ill effect stemming from the
Gaffneys' and Dudek's alleged wrongdoings, see Cibula v.
Fox. 570 F. App'x 129, 136 (3d Cir. 2014) (noting the
distinction between continuing unlawful acts, which can
serve as the basis of a continuing violations, and
continuing in effects from an original violation, which
cannot); and it appearing that, since Plaintiffs original
complaint was filed on April 17,2017, more than two years
after the last affirmative act pled against either the
Gaffneys or Officer Dudek, his Section 1983 claims against
those Defendants are therefore time-barred
2

The continuing violations doctrine is an "equitable exception to the
timely filing requirement.” Westv. Philadelphia Elec. Co.. 45 F.3d 744,
754 [3d Cir.1995). Thus, "when a defendant’s conduct is part of a
continuing practice, an action is timely so long as the last act
evidencing the continuing practice falls within the limitations period;
in such an instance, the court will grant relief for the earlier related
acts that would otherwise be time barred." Brenner v. Local 514,
United Bhd. of Carnenters and loiners of Am.. 927 F.2d 1283,1295 [3d
Cir.1991).
3
The same reasoning applies to any claims brought under 42 U.S.C. §
1985 for conspiracy to deprive Plaintiff of his rights, which are
similarly time-barred under the two year statute of limitations.
Pedersen v. Nat’l Collegiate Athletics Ass’n. No. CV 14-2544,2015 WL
7573200, at *2 [D.N.J. Nov. 24,2015).
Appendix L
41

and it appearing that a plaintiff cannot sue the United
States, under the FTCA, unless he files a claim with the
appropriate agency and the agency denies the claim in
writing, see 28 U.S.C. § 2675(a); Romav.U.S.. 344 F.3d 352,
362 (3d Cir. 2003); and it appearing that, here, Plaintiff
does not allege that he executed a proper administrative
tort claim against either the United States or the John and
Jane Doe federal employees4, Am. Compl. 64-84;
and it appearing that Plaintiffs letter to DOJ—which he
claims satisfies the requirements for exhaustion—on
March 28, 2007 failed to strictly comply with regulations
because it did not include a claim for money damages in a
sum certain, see Bialowas v. United States. 443 F.2d 1047,
1050 (3d Cir. 1971) (stating that the written notification
must state a sum certain in order for the administrative
claim to be proper under the FTCA regulation); Galicia v.
United States. 15-07077. 2015 WL 8513986, at *3 (D.N.J.
Dec. 11,2015) (the requirement to submit a sum certain to
the appropriate agency before filing an FTCA claim is a
jurisdictional requirement that cannot be waived) and is
therefore deficient; and it appearing that the United States
cannot be sued under Section 1983 because Section 1983
provides a damage remedy for unconstitutional actions by
state officials, not the Federal Government, see Polskv v.
United States. 844 F.3d 170, 173 (3d Cir. 2016); and it
appearing that, to the extent Plaintiff seeks to assert a
Bivens claim against the John and Jane Doe federal
employees, he has failed to state a plausible claim for relief
by failing to articulate their personal, affirmative
involvement in the deprivation of a constitutionally
protected right,
4

As a threshold matter, in an FTCA action, Plaintiff is only permitted
to name the United States as a Defendant, not the federal employees.
See 28 U.S.C. § 2679(b) and (d)(1); Cvrus v. Doe. 2007 WL 916300, at
*5(M.D.Pa. Mar. 21,2007)
Appendix L
42

see Bivens v. Six Unknown Named Agents of Fed. Bureau of
Narcotics. 402 U.S. 388 (1971); and for good cause shown;
It is on this 6th day of April, 2018, ORDERED that
Defendant Dudek's Motion for Judgment on the Pleadings
as to Count 4, ECF No. 32, Defendants James and Diane
Gaffneys' Motion to Dismiss as to Counts 1-3, ECF No. 33,
and Defendant United States' Motion to Dismiss Count 5,
ECF No. 34, are GRANTED without prejudice; and it is
further ORDERED that Plaintiffs Motion for Judgment on
the Pleadings, ECF No. 36, is DENIED.
/s/ Madeline Cox Arleo
Hon. Madeline Cox Arleo
United States District Judge
Appendix L
United States District Court District of New Jersey
Civil Action No. 17-2625-MCA-SCM
Order [D.E.38]
Edward J. Mierzwa, Plaintijf, v. John Ashcroft, et al.,
Defendants
This matter having come before the Court by way of
Plaintiff Edward /. Mierzwa's ("Mr. Mierzwa") Motion for
Rescheduling the Rule 16 Conference and Vacating the
Scheduling Order1, and the Court having dismissed all of
Mr. Mierzwa's claims;2
1See fECF Docket Entry No. ("D.E.") 38, Pl.’s Mot).
2 (D.E. 40, Order).
Appendix M
43

It is on this Wednesday, April 11, 2018, (1) Ordered, that
Mr. Mierzwa’s Motion for Rescheduling the Rule 16
Conference and Vacating the Scheduling Order (D.E. 38), is
hereby terminated as Moot; and it is further (2) Ordered,
that the Clerk of the Court shall provide a copy of this
Order to the pro se defendant in this case.
(seal)

Dated: 4/11/2018 @ 11:50:42 AM
/s/ Honorable Steve Mannion, U.S.M.J.
United States District Court for the District of New Jersey
phone: 973-645-3827
Original: Clerk of the Court
Hon. Madeline Cox Arleo, U.S.D.J.
cc:
All parties
File

Appendix M
44

United States District Court District of New Jersey
Civil Action No. 17-2625-MCA-SCM
Order [D.E.49]
Edward J. Mierzwa, Plaintijf v. John Ashcroft, et al.,
Defendants
This matter having come before the Court by way of
Plaintiff Edward J. Mierzwa's ("Mr. Mierzwa”) Motion for
Change of Venue and Motion to File Documents
Electronically,1 and the Court having dismissed all of Mr.
Mierzwa’s claims;2 It is on this Tuesday, May 08, 2018,
(1.) Ordered, that Mr. Mierzwa’s Motion for Change of
Venue & Motion to File Documents Electronically (D.E. 49),
are hereby administratively terminated as MOOT; and it is
further (2.) Ordered, that the Clerk of the Court shall
provide a copy of this Order to the pro se defendant in this
case.
(seal)
Dated: 5/08/2018 @ 02:54:49 PM
/s/ Honorable Steve Mannion, U.S.M.J.
United States District Court for the District of New Jersey
phone: 973-645-3827
Original: Clerk of the Court
Hon. Madeline Cox Arleo, U.S.D.J.
cc:
All parties
File

1[ECF Docket Entry No. ("D.E.") 49, Pl.'s Mot.].
2 (D.E. 52, Order].
Appendix N
45

Statement of The Case

2.

The Docket Sheet for Civil Action No. 2:17-cv-02625-MCASCM is attached on pages following. The Lower Court
adjudicated all matters administratively and the following
contain Appellant's Remarks:
ECF No.
1

Comments
On the regular court date of April 13, 2017,
said complaint was hand carried & deposited
in the drop-box found in the lobby of the MLK
Building and US Court House in Newark prior
to the closing of the building. The court was
recessed on Good Friday, April 14, 2017.
There were no filing deficiencies attributable
to Plaintiff; however, the Office of the Clerk
entered the date of Monday 2017 APR 17 as
the Receipt and Filing Date. Subsequently,
this caused a dilemma regarding the Statute
of Limitations applied to 42 U.S.C. § 1983
claims. On or about 18 April 2018, the Office
of the Clerk did make the correction to the
Docket Report for the actual filing date. The
[case dispositive] Order, ECF No. 40 signed on
06 April 2018, is currently in full force and
effect.

2

Proper & timely service of Summons
transpired; a Waiver of Service was also filed.

3

Appellant/Plaintiff filed Motion to File Sealed
Documents.

4

Appellee/Defendant
extension, granted.

request

for

filing

Appendix I
46

5

Substitution of USA for USDOJ personnel
named in the original complaint.

6

Appellee/Defendant Motion to Dismiss, filed
out of time.

7

Appellant/Plaintiff opposition to ECF No. 5;
averred to actionable claims regarding
Deprivation of Rights.

8

Appellee/Defendant submission of nonconforming Answer to Complaint.

9

Appellant/Plaintiff verbal consent for
Appellee/Defendant request for 2nd filing
extension.

10

Proper & timely service of Summons
transpired; a Waiver of Service was also filed.

11

Appellant/Plaintiff opposition to ECF No. 6; a
frivolous motion that distorted the continuing
torts doctrine, absolute immunity and the
statute of limitations. Appellant/Plaintiff
asserted the actual filing date of ECF No. 1;
also, noted the belated filing of ECF No. 6.

12

Appellant/Plaintiff request for Clerk's Entry
of Default against Appellee(s)/Defendant(s};
time to answer complaint or otherwise
defend expired. Appellant/Plaintiff asserted
the actual filing date of ECF No. 1.

13

Order granting filing extension, see ECF No. 9.
Appendix I
47

14

Appellant/Plaintiff filed
Letter Brief
addressing key errors committed by the
Office of the Clerk impacting ECF No. 12.

15

Order regarding Discovery Plan and
Summary of Claims and Defenses; it should be
noted that in the days prior to this Order,
Appellant/Plaintiff furnished all discovery
documents [electronically on DVD data disk,
readable on any computer] to adversary
representing USDOJ personnel.

16

Appellant/Plaintiff filed
Letter Brief
requesting the removal of Docket Clerk QB)
from this case for reason of habitual and
substantial errors.

17

Appellant/Plaintiff furnished submission for
Joint Discovery Plan; filing summarized the
up to date status of the case.

18

Appellee/Defendant filed Motion to Dismiss
addressing issues regarding the Federal Tort
Claims Act; with full discovery in hand,
engaged in acts of misleading conduct.

19

Appellee/Defendant furnished submission
for Joint Discovery Plan; with a myriad of nonapplicable statements & falsities, deliberately
engaging in acts of misleading conduct.

Appendix I
48

20

Appellee(s)/Defendant(s) made application
to the Court with a myriad of non-applicable
statements & falsities regarding the futility of
the case, thereby requesting a Stay of
Discovery; further engaging in acts of
misleading conduct.

21

Fifteen days prior to the filing of the Amended
Complaint, ECF No. 24, Appellant/Plaintiff
filed an updated answer to If5 of the
Discovery Plan. Status updates were updated
with regard to return dates for motions filed,
all parties were notified that an Amended
Complaint will be filed under the provisions
of FRCVP 15(a)(1)(B); also, stating wellgrounded reasons for pursuing Discovery.

22

Eight days prior to the filing of the Amended
Complaint, ECF No. 24, Appellee/Defendant
further engaged in misleading conduct
requesting the relaxation of Order, ECF No. 15
and Court Rules under the guise of efficiency.

23

One day after the filing of Amended
Complaint, ECF No. 24, Order Staying
Discovery & Initial Disclosures was signed.

Appendix I
49

24

Appellant/Plaintiff filed Amended Complaint
on 23 August 2017. With respect to the
original complaint, the paragraph numbering
and pleadings affecting Appellee(s)/
Defendant(s) Arkadiusz Dudek, Diane Gaffney
and James Gaffney were unchanged; Clerk's
Entry of Default awaited, see ECF No. 12. The
Amended Complaint pleaded: (1) Jurisdiction
and Venue; (2) Declatory Statement of
Matters Regarding the Federal Tort Claims
Act; (3) Declatory Statement of Timely Filing;
(4) Demand for Discovery; (5) USDOJ Duty
Forms, Citizen Complaint Forms, Letters to
USDOJ and Official Responses - Exhibits A
thru U; (6) Claims Made upon Defendant(s)
USA, John Doe & Jane Doe; (7) Prayers for
Relief; (8) Jury Demand.

25

Proof of Service regarding Amended
Complaint filed by Appellant/Plaintiff.

26

Appellee/Defendant request for another
filing extension.

27

Appellee/Defendant application to receive
ECF documents.

28

Letter Order affirming Amended Complaint
was properly filed pursuant to the provisions
of FRCVP 15(a)(1)(B).

29

Order denying Leave to
Documents, see ECF No. 3.

30

Order by Chief Judge communicating an all is
well and no trouble found status.

File

Sealed

Appendix I
50

31

Order rendering moot status regarding ECF
No. 14; the Opinion wrongfully imputed
motion status to ECF No. 8.

32

Appellee/Defendant Motion to Dismiss filed;
bombastic rhetoric regarding Immunities, the
Statute of Limitations and Continuing Torts
Doctrine.

33

Appellee/Defendant submission of nonconforming Answer to Complaint.

34

Appellee/Defendant Motion to Dismiss filed;
the Brief advances the rationale that the Court
Lacks Subject Matter Jurisdiction regarding
the Amended Complaint citing the Federal
Tort Claims Act for reason of: (1) Lack of
Exhaustion; (2} Discretionary Function
Exception; (3) Lack of Jurisdiction regarding
Constitutional Claims. Appellee/Defendant
further engaged in misleading conduct, as
Discovery would reveal the true identities of
the wrongdoers pleaded as John Doe and Jane
Doe; as John Doe and Jane Doe would be
subjected to the statutory provisions of
racketeering, setting in motion the Discovery
Rule of the Continuing Torts Doctrine; thus,
paving the way to file Form SF-95 for the Tort
Claim Notice and pursuing relief.

Appendix I
51

35

Appellant/Plaintiff filed Opposition Brief with
regard to ECF No. 32 and ECF No. 34. The
applicability of the Continuing Torts Doctrine
regarding the matters pleaded in the
Amended Complaint are fully addressed.

36

Appellant/Plaintiff filed Motion for Summary
Judgment with regard to Appelleefs]/
Defendants], Diane Gaffney and James
Gaffney. The motion was unopposed.

37

Clerk’s entry regarding Change of Address of
Appellee/ Defendant.

38

Appellant/Plaintiff filed Motion to Schedule
Rule 16 Conference and Vacate Scheduling
Order, ECF No. 23; all for the purpose of
reinstating Discovery.

39

Appellee/Defendant filed Opposition Papers
regarding ECF No. 38; recycling nonapplicable arguments found in ECF No. 20.

40

Order and Opinion signed by Hon. Madeline
Cox Arleo, U.S.D.J. all for the wrongful purpose
of “case dumping"; making reference to the
controverted filing date of 17 April 2017 for
the purpose of perverting the statute of
limitations. It should be noted that on the
date of 06 April 2018, the Court calculatedly
entered an Order re Docket No. 2:18-cv02625-KM-JBC, dated 06 April 2018 [copy
attached] for the purpose of creating a
"smokescreen" on the docket report and
misleading Appellant/Plaintiff; this was
brought this to the attention of the Court &
corrected on 09 April 2018.
Appendix I
52

41

Appellant/Plaintiff reasserted the filing date
of 13 April 2017 and requested a stay of
proceedings.

42

Order denying Motion to Schedule Rule 16
Conference and Vacate Scheduling Order, ECF
No. 23, see ECF No. 38.

43

Double entry of ECF No. 41. Initially, the
Court refused to file ECF No. 41 and with an
exhaustive effort in excess often hours by the
Appellant/Plaintiff, this filing did appear on
the docket report. The next day, on 18 April
2018, Plaintiff/Appellant hand carried an
original copy of NOTICE OF MOTION FOR
LEAVE TO FILE INTERLOCUTORY APPEAL
WITH REGARD TO CIVIL ACTION, DOCKET
NO. 2:17-CV-2625-MCA-SCM, FILED ON 13
APRIL 2017 IN THE USDC, DISTRICT OF NEW
JERSEY, VICINAGE OF NEWARK, PRESIDED
BY HON. MADELINE COX ARLEO, U.S.D.J.
ASSISTED BY HON. STEVEN C. MANNION,
U.S.M.J. AND MOTION FOR STAY OF
PROCEEDINGS PENDING APPEAL to the
Office of the USDC Clerk; also, on 18 April
2018, courtesy copies to Hon. Madeline Cox
Arleo, USDJ and Hon. Steven C. Mannion, USMJ
were forwarded via the Office of the USDC
Clerk. The Court refused to file this and with
an exhaustive effort in excess often hours by
the Appellant/Plaintiff, this filing belatedly
did appear on the docket report upon the
intervention of USCA, see ECF No. 45.

Appendix I
53

44

The Docket Clerk (JB) made the entry:
CERTIFICATE OF SERVICE by EDWARD J.
MIERZWA re 43 Letter. This was another false
statement deliberately made for the purpose
of further Obstructing the Proceedings. On
the date of 24 April 2018, Appellant/Plaintiff
filed Proof of Service of NOTICE OF MOTION
FOR LEAVE TO FILE INTERLOCUTORY
APPEAL WITH REGARD TO CIVIL ACTION,
DOCKET NO. 2:17-CV-2625-MCA-SCM, FILED
ON 13 APRIL 2017 IN THE USDC, DISTRICT
OF NEW JERSEY, VICINAGE OF NEWARK,
PRESIDED BY HON. MADELINE COX ARLEO,
U.S.D.J. ASSISTED BY HON. STEVEN C.
MANNION, U.S.M.J. AND MOTION FOR STAY
OF PROCEEDINGS PENDING APPEAL.

45

Letter to USDC from USCA, forwarding a copy
of Motion for Leave to File Interlocutory
Appeal and establishing the filing date of the
appeal as 26 April 2018. Initially, ECF No. 46
was included in ECF No. 45.

46

For Court purposes, the Motion for Leave to
File Interlocutory Appeal revised to Notice of
Appeal.

Appendix I
54

47

On the date of 30 April 2018, Appellant/
Plaintiff forwarded an annotated copy of
NOTICE OF MOTION FOR LEAVE TO FILE
INTERLOCUTORY APPEAL WITH REGARD TO
CIVIL ACTION, DOCKET NO. 2:17-CV-2625MCA-SCM, FILED ON 13 APRIL 2017 IN THE
USDC, DISTRICT OF NEW JERSEY, VICINAGE
OF NEWARK, PRESIDED BY HON. MADELINE
COX ARLEO, U.S.D.J. ASSISTED BY HON.
STEVEN C. MANNION, U.S.M.J. AND MOTION
FOR STAY OF PROCEEDINGS PENDING
APPEAL to USDC Clerk.

48

USCA Docket No. 18-2007 was assigned to the
appeal.

49

Appellant/Plaintiff filed Motion to Change
Venue and Leave to File Documents
Electronically.

50

Appellant/Plaintiff revised and updated the
Motion for Leave to File Interlocutory Appeal
to Notice of Appeal; appeal related filing fees
paid and recorded.

51

Double entry of ECF No. 47.

Appendix I
55

52

Transcript Purchase Order forwarded to
USDC. Notably, STANDARD FORM 95 (REV.
2/2007) PRESCRIBED BY DEPT. OF JUSTICE
28 CFR 14.2 was tendered to the Office of the
USDC Clerk; Basis of Claim Box 8 of SF-95
states "emotional duress inflicted upon
claimant caused by Fraud Upon the United
States District Court for the District of New
Jersey committed by past and/or present
John and/or Jane Does employed and/or
contracted by the United States of America in
their personal & professional capacities".

53

Order denying Motion to Change Venue and
Leave to File Documents Electronically, see
ECFNo.49.

3.
blank
4.
STATEMENT OF FACTS
Amended Complaint Tfl [Nature of the Complaint]
provides a full discourse on the scandalous series of events
prior to filing the Complaint, see ECF No. 24.
5.
STATEMENT OF RELATED CASES
Appellant has not filed any previous appeals regarding
matters presently before the U.S.C.A. Docket No. 18-2007;
likewise, there are no case related proceedings in the
district court.

Appendix I
56

APPEAL, SCHEDO
U.S. District Court
District of New Jersey [LIVE] (Newark)
CIVIL DOCKET FOR CASE #: 2:17-cv-02625-MCA-SCM
MIERZWA v. ASHCROFT et al
Assigned to: Judge Madeline Cox Arleo
Referred to: Magistrate Judge Steven C. Mannion
Case in other court: Third Circuit, 18-02007
Cause: 42:1983 Civil Rights Act
Date Filed: 04/13/2017
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question
Plaintiff
Edward J. Mierzwa
represented by:
Edward J. Mierzwa
11 Brook Street
Hackensack, NJ 07601-1509
973-340-7954
Pro Se
V.

Defendant
John Ashcroft
Attorney General of United States, as an individual and in
official and personal capacities
TERMINATED: 06/26/2017

Appendix I
57

represented by:
Kruti D. Dharja
Office of The U.S. Attorney
District Of New Jersey
970 Broad Street
Suite 700
Newark, NJ 07102
973-645-2891
Email: kruti.dharia@usdoj.gov
Lead Attorney
Attorney to Be Noticed
Defendant
Alberto Gonzalez
Attorney General of United States, as an individual and in
official and personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Paul Clement
Attorney General of United States, as an individual and in
official and personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed

Appendix I
58

Defendant
Peter Keisler
Attorney General of United States, as an individual and in
official and personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Michael Mukasey
Attorney General of United States, as an individual and in
official and personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Christopher Christie
United States Attorney, as an individual and in official and
personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Ralph Marra, Jr.
United States Attorney, as an individual and in official and
personal capacities
TERMINATED: 06/26/2017
Appendix I
59

represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Paul J. Fishman
United States Attorney, as an individual and in official and
personal capacities
TERMINATED: 06/26/2017
represented by:
Kruti D. Dharja (See above for address)
Lead Attorney
Attorney to Be Noticed
Defendant
Arkadiusz M. Dudek
represented by:
Daniel R. Bevere
Piro, Zinna, Cifelli & Paris, Esqs.
360 Passaic Avenue
Nutley, NJ 07110
(973) 661-0710
Email; dbeverepirozinnalaw.com
Lead Attorney
Attorney to Be Noticed
Defendant
Diane Gaffney
represented by:
Diane Gaffney
49 Scudder Street
Garfield, NJ 07026
973-246-3088
Email: copper2563gmail.com
Pro Se
Appendix I
60

Defendant
James Gaffney
represented by:
James Gaffney
32 Marion Pepe Drive
Lodi, NJ 07644
973-246-3088
Pro Se
Defendant
United States of America
represented by:
Kruti D. Dharja (See above for address]
Lead Attorney
Attorney to Be Noticed
Defendant
JOHN DOES 1-100
Employee of United States Department of Justice as an
individual and official and personal capacities
JANE DOES 1-100
Employee of United States Department of Justice as an
individual and official and personal capacities

Appendix I
61

Date Filed

#

Docket Text

04/13/2017

1

Complaint against John Ashcroft,
Christopher Christie, Paul Clement,
Arkadiusz M. Dudek, Paul J. Fishman,
Diane Gaffney, James Gaffney
Alberto Gonzalez, Peter Keisler,
Ralph Marra, Jr, Michael Mukasey
[Filing and Admin fee $400 receipt
number
NEW032930)
with
Jury Demand, filed by Edward J.
Mierzwa. [Attachments: # 1 Civil
Cover Sheet} [dam). Modified on
4/23/2018
[mfr).
[Entered:
04/18/2017)

04/18/2017

2

Summons issued as to John Ashcroft,
Christopher Christie, Paul Clement,
Arkadiusz M. Dudek, Paul J. Fishman,
Diane Gaffney, James Gaffney,
Alberto Gonzalez, Peter Keisler,
Ralph Marra, Jr, Michael Mukasey
Attached is the official court
Summons, please fill out Defendant
and Plaintiffs attorney information
and serve. Issued By *Donato
[dam)
(Entered:
Marucci*
04/18/2017)

Appendix I
62

06/05/2017

3

Notice of Ex-Parte Motion for Leave
to File Sealed Documents by Edward
J. Mierzwa. [Attachments: #1 Letter
Brief in support of motion, #2 letter
to Clerk and Transmittal of Waiver of
Service, #3 Certificate of Service) #4
(cm,).
(Entered:
envelope)

06/07/2017)
Set Deadlines as to 3 MOTION for
Leave to File. Motion set for
7/3/2017 before Judge Madeline
Cox Arleo. Unless otherwise directed
by the Court, this motion will be
decided on the papers and no
appearances are required. Note that
this is an automatically generated
message from the Clerk's Office and
does not supersede any previous or
subsequent orders from the Court
[cm,) [Entered: 06/07/2017)

06/07/2017

06/22/2017

4

Application and Proposed Order for
Clerk's Order to extend time to
answer Attorney Kruti D. Dharia for
John Ashcroft, Kruti D. Dharia for
Christopher Christie, Kruti D. Duaria
for Paul Clement, Kruti D. Dharia for
Paul J. Fishman, Kruti D. Dharia for
Alberto Gonzalez, Kruti D. Dharia for
Peter Keisler, Kruti D. Dharia for
Ralph Marra, Jr, Kruti D. Dharia for
added.
Michael
Mukasey
(Attachments: # 1 Certificate of
Service) (Dharia, Kruti) (Entered:
06/22/2017)
Appendix I

63

Clerk's Text Order - The document 4
Application for Clerk’s Order to Ext
Answer/Proposed Order, submitted
by Michael Mukasey, Alberto
Gonzalez, Christopher Christie, Paul
J. Fishman, John Ashcroft, Ralph
Marra, Jr, Paul Clement, Peter Keisler
has been Granted. The answer due
date has been set for 07/17/2017.
Cek) (Entered: 06/23/2017)

06/23/2017

06/26/2017

5

Notice By John Ashcroft, Christopher
Christie, Paul Clement, Paul J.
Fishman, Alberto Gonzalez, Peter
Keisler, Ralph Marra, Jr, Michael
Mukasey to Substitute the United
States cf America as a defendant
(Attachments: # j.. Certification of
Scope of Employment, #2 Certificate
of
Service) (DH ARIA,
KRUTI)
(Entered: 06/26/2017)

07/06/2017

6

Motion to Dismiss by Arkadiusz M.
Dudek.Responses due by 7/24/2017
(Attachments: #1 Brief, #2 Text of
Proposed Order) (Bevere, Daniel)
(Entered: 07/06/2017)

07/06/2017

Set Deadlines as to 6 Motion to
Dismiss. Motion set for 8/7/2017
before Judge Madeline Cox Arleo.
Unless otherwise directed by the
Court, this motion will be decided on
the papers and no appearances are
required. Note that this is an
automatically generated message
from the Clerk's Office and does not
supersede
any previous
or
subsequent orders from the Court
(ek) (Entered: 07/06/2017)
Appendix I

64

07/06/2017

7

Letter Brief, in opposition to Counsel
for Defendants Application for the
substitution of named party (JB,)
[Entered: 07/07/2017)

07/11/2017

8

Answer to Complaint by Diane
Gaffney, James Gaffney. QB,)
(Entered: 07/12/2017)

07/11/2017

10

Certificate
of Service
upon
Defendants Ashcroft, Gonzalez,
Clement, Keisler, Christie, Marra,
Fishman, Arkadiusz M. Dudek, James
and Diane Gaffney by Edward J.
(Entered:
Mierzwa
OB,)
07/13/2017)

07/11/2017

11

Letter Brief in Opposition filed by
Edward J. Mierzwa re 6 Motion to
Dismiss (JB,) (Entered: 07/13/2017)

07/11/2017

12

Request for Default by Edward J.
Mierzwa against Diane and James
Gaffney and Arkadiusz M. Dudek
(Attachments: #1 Certificate)(JB,)
(Entered: 07/13/2017)

07/13/2017

9

Letter from Defendants requesting
an extension of time, with the
plaintiffs consent, to respond to the
complaint. (Dharia, Kruti) (Entered:
07/13/2017)

Appendix I
65

07/13/2017

07/14/2017

Clerk's Quality Control Message Please be advised that the Request
for Default submitted by Edward J.
Mierzwa on 7/11/2017 cannot be
granted as requested because
improper service. This submission
will remain on the docket unless
otherwise ordered by the Court. This
message is for informational
purposes only. QB,} (Entered:
07/13/2017)
13

07/17/2017

07/17/2017

Order granting Defendant's 9 Letter
request extending time to respond to
Plaintiffs Complaint from July 17
until August 4, 2017, etc. Signed by
Magistrate Judge Steven C. Mannion
on 07/14/2017. (ek) (Entered:
07/14/2017)
Clerk’s Quality Control Message Please note the Quality Control
Message previously filed by the
Clerk's office on 07/13/2017 was
docketed in error. The service was
properly made but default could not
be enter against defendants, Dudek,
and Gaffneys as Mr. Dudek filed a
motion to dismiss case on 7/6/2017
and an answer was send to Plaintiff
by Diane And James Gaffney around
6/26/2017 and received by the
clerk's office on 7/11/2017 Please
disregard the previous quality
control message. (JB,) (Entered:
07/17/2017)

14

Ex. Parte Motion to Reverse Error
made by the Office of the Clerk
regarding Default request, by
Edward J. Mierzwa. (JB, ) (Entered:
07/19/2017)
Appendix I
66

07/19/2017

Set Deadlines as to Motion to Vacate
QC - Incorrect Entry made by Clerk’s
Office Staff. Motion set for
8/21/2017 before Judge Madeline
Cox Arleo. Unless otherwise directed
by the Court, this motion will be
decided on the papers and no
appearances are required. Note that
this is an automatically generated
message from the Clerk's Office and
does not supersede any previous or
subsequent orders from the Court
OBJ (Entered: 07/19/2017)

07/25/2017

15

Letter Order regarding scheduling in
Pro Se cases Pursuant to Rule 16,
Joint Proposed Discovery Plans due
by 8/15/2017, Initial Scheduling
Order to be filed on or before
8/24/201 7. Signed by Magistrate
Judge Steven C. Mannion on
7/25/2017.
(spc,)
(Entered:
07/25/2017)

07/27/2017

16

Letter from Edward Mierzwa
requesting reassignment of docket
clerk, (sr,) (Entered: 07/28/2017)

07/31/2017

17

Plaintiffs Submission for Joint
Discovery Plan by Edward J.
Mierzwa. (Attachments: # 1
envelope) #2 Certificate of Mailing)
(cm,). (Entered: 08/02/2017)

Appendix 1
67

08/02/2017

18

08/02/2017

Motion to Dismiss for Lack of
Jurisdiction by United States of
America. (Attachments: #1 Brief, #2
Declaration of Elijah Jenkins, #3 Text
of Proposed Order, #4 Certificate of
Service) (Dharia, Kruti) (Entered:
08/02/2017)
Set Deadlines as to 18 Motion to
Dismiss for Lack of Jurisdiction.
Motion set for 9/5/2017 before Judge
Madeline Cox Arleo. Unless otherwise
directed by the Court, this motion will
be decided on the papers and no
appearances are required. Note that
this is an automatically generated
message from the Clerk’s Office and
does not supersede any previous or
subsequent orders from the Court,
(ek) (Entered: 08/02/2017)

08/07/2017

19

Joint Discovery Plan by Arkadiusz M.
Dudek. (Bevere, Daniel) (Entered:
08/07/2017)

08/07/2017

20

Letter from the government, with
consent,
Defendant
Dudek's
requesting a stay of discovery.
(Dharia,Kruti) (Entered:08/07/2017)

08/09/2017

21

Updated Joint Discovery Plan by
Edward J. Mierzwa. (Id,) (Entered:
08/14/2017)

08/15/2017

22

Letter from the government
regarding the plaintiffs intention to
amend the complaint re 21 Joint
Discovery Plan. (DHARIA, KRUTJ)
(Entered: 08/15/2017)

Appendix I
68

08/23/2017

24

Amended
Complaint
against
Arkadiusz
M.
Dudek,
Diane
Gaffney, James Gaffney, John Does 1100, Jane Does 1-100, United States of
America Arkadiusz M. Dudek, filed by
Edward J. Mierzwa. [Attachments: #1
Exhibit
A-UJCJB,)
[Entered:
08/28/2017}

08/24/2017

23

Pretrial Scheduling Order staying
Fact Discovery; etc. Signed by
Magistrate Judge Steven C. Mannion
on 8/24/17. [sr,][N/M] [Entered:
08/25/2017}

08/25/2017

25

Certificate of Service of Amended
Complaint by Edward J. Mierzwa
[JB,} [Entered: 08/28/2017}

08/28/2017

26

Application and Proposed Order for
Clerk's Order to extend time to
answer. [Attachments: #1 Certificate
of Service) [DHARIA, KRUTI)
[Entered: 08/28/2017)
Clerk's Text Order - The document 26
Application for Clerk’s Order to Ext
Answer/Proposed Order submitted
by United States of America has
been Granted. The answer due date
has been set for 9/20/2017. (Id,)
[Entered: 08/28/2017)

08/28/2017

08/29/2017

27

Consent & Registration Form to
Receive Documents Electronically by
Diane Gaffney (id,). (Entered:
08/29/2017)

Appendix I
69

09/05/2017

28

Letter Order, before the Court is a
unopposed request from pro se
Plaintiff Edward J. Mierzwa ("Mr.
Mierzwa") to file an Amended
Complaint In light of relevant Federal
Rules of Civil Procedure, no motion
was necessary to amend within the
time allowed. The Court therefore
grants Mr. Mierzwa's unopposed
motion to file an Amended Complaint
The Amended Complaint shall be filed
within then days and the Clerk of the
Court shall mail a copy of this Order
to Plaintiff Mierzwa. Signed by
Magistrate Judge Steven C. Mannion
on 9/5/2017. (JB,) (Entered:
09/05/2017)

09/06/2017

29

Letter Opinion and Order Denying
Motion for Leave to File Sealed.
The Clerk shall mail a copy of this
Order to Mr. Mierzwa and Mr. Gaffney
Documents.. Signed by Magistrate
Judge Steven C. Mannion on
9/5/2017.
(SB,)
(Entered:
09/06/2017)

09/07/2017

30

Order re: 16 Letter from Edward
Mierzwa requesting reassignment of
docket clerk. I find that the issues
raised in your request are factually
not accurate, or have already been
addressed. Therefore no further
order from this Court is necessary.
Signed by Chief Judge Jose L. Linares
on 9/7/2017. (JB,) (Entered:
09/08/2017)

Appendix I
70

09/14/2017

31

Letter Opinion and Order denying 14
Motion to Vacate and motion for
judgment on the pleadings are both
Denied as Moot. All defendants shall
answer or otherwise respond to the
Amended Complaint by no later than
September 30, 2017. The Clerk shall
mail a copy of this Order to Mr.
Mierzwa and Mr. Gaffney. Signed by
Magistrate Judge Steven C. Mannion
on 9/14/2017. [SB,) [Entered:
09/14/2017)

09/25/2017

32

Motion for Judgment on the Pleadings
by Arkadiusz M. Dudek. Responses
due by 10/23/2017 [Attachments:
#1 Brief, #2 Certificate of
Service, #3 Text of Proposed
Order) (Bevere, Daniel) [Entered:
09/25/2017)

09/25/2017

33

Answer to Amended Complaint by
Diane Gaffney, James Gaffney. [SB,)
[Entered: 09/25/2017)

09/25/2017

Set Deadlines as to 32 Motion for
Judgment on the Pleadings . Motion
set for 11/6/2017 before Judge
Madeline Cox Arleo. Unless otherwise
directed by the Court, this motion will
be decided on the papers and no
appearances are required. Note that
this is an automatically generated
message
from
the
Clerk’s
Office and does not supersede any
previous or subsequent orders from
the
Court.
(SB,)
(Entered:
09/25/2017)
Appendix I
71

09/28/2017

34

09/28/2017

Motion to Dismiss for Lack of
Jurisdiction by United States of
America. (Attachments: # 1 Brief, #2
Declaration of Elijah Jenkins, #3 Text
of Proposed Order, #4 Certificate of
Service) (Dharia, Kruti) (Entered:
09/28/2017)
Set Deadlines as to 34 Motion to
Dismiss for Lack of Jurisdiction.
Motion set for 11/6/2017 before
Judge Madeline Cox Arleo. Unless
otherwise directed by the Court, this
motion will be decided on the papers
and no appearances are required.
Note that this is an automatically
generated message from the Clerk’s
Office and does not supersede any
previous or subsequent orders from
the Court. (ek)(Entered: 9/28/2017)

10/23/2017

35

Brief in Opposition filed by Edward J.
Mierzwa re 32 Motion for Judgment
on the Pleadings by Arkadiusz M.
Dudek 34 Motion to Dismiss for
Lack of Jurisdiction by United States
(Entered:
of America.
0B,)
10/23/2017)

11/06/2017

36

Motion for Judgment on the Pleadings
by Edward J. Mierzwa. (Attachments:
#1 Brief) (JB,) (Entered 11/07/2017)

Appendix I
72

Set Deadlines as to 36 Motion for
Judgment on the Pleadings. Motion
set for 12/4/2017 before Judge
Madeline Cox Arleo. Unless otherwise
directed by the Court, this motion will
be decided on the papers and no
appearances are required. Note that
this is an automatically generated
message from the Clerk’s Office and
does not supersede any previous or
subsequent orders from the Court.
CJBJ (Entered: 11/07/2017)

11/06/2017

11/30/2017

37

Notice of Change of Address by James
Gaffney (Lodi Address updated on the
record) (JB,) (Entered: 11/30/2017)

12/20/2017

38

Motion for scheduling Rule 16
conference and Vacating ECF No. 23
Pretrial Scheduling Order staying
Fact Discovery by Edward J.
Mierzwa. (J B,) (Entered :12/21/2017)

12/21/2017

Set Deadlines as to 38 MOTION to
Vacate 23 Scheduling Order. Motion
set for 1/16/2018 before Judge
Madeline Cox Arleo. Unless otherwise
directed by the Court, this motion will
be decided on the papers and no
appearances are required. Note that
this is an automatically generated
message from the Clerk’ s
Office and does not supersede any
previous or subsequent orders from
the Court.(JB,)(Entered:12/21/2017)

Appendix I
73

01/03/2018

39

Response in Opposition filed by United
States
of
America
Re
Motion to Vacate Scheduling Order
(Dharia,Kruti)(Entered:01/03/2018]

04/06/2018

40

Order, that Defendant Dudek’s motion
for Judgment on the Pleadings and to
Count 4 ECF No. 32 Defendants James
and Diane Gaffneys' Motion to Dismiss
as to Counts 1-3 ECF No.33 and
Defendant United States’ Motion to
dismiss Count 5 ECF No.34 are Granted
without prejudice, and it is further
Ordered that Plaintiffs motion for
judgment on the pleadings, ECF NO. 3 is
denied. Signed by Judge Madeline Cox
Arleo on 4/6/2018. (JB,] (Main
Document
40
replaced
on
4/9/2018] (JB,].(Entered:04/06/2018]

04/13/2018

41

Application/Petition requesting Stay of
Proceedings and establishing the
original filing date by Edward J.
Mierzwa. (JB,) (Entered: 04/17/2018]

04/17/2018

42

Order terminating as moot motion for
scheduling Rule 16 conference and
Vacating ECF No.23 Pretrial Scheduling
Order staying Fact Discovery by
Edward J. Mierzwa. It is further Ordered
that the Clerk of the Court shall provide
a copy this Order to the pro se
defendant in this case.. Signed by
Magistrate Judge Steven C. Mannion on
4/ll/2018.(JB,](Entered:04/17/2018]

Appendix I
74

04/17/2018

43

Letter request for a Stay of Proceedings
and to establish the original filing date
of the above referenced docket number
from Edward J. Mierzwa. (Id,) (Entered:
04/18/2018)

04/26/2018

44

Certificate of Service by Edward J.
Mierzwa re 43 Letter (JB,) (Entered:
04/29/2018)

04/26/2018

46

05/02/2018

45

Notice of Appeal as to 40 Order on
Motion for Judgment on the Pleadings,
Order on Motion to Dismiss/Lack of
Jurisdiction, by Edward J. Mierzwa.
The Clerk's Office hereby certifies the
record and the docket sheet available
through ECF to be the list in lieu of the
record and/or the copy of the docket
entries.(dam,)N/M(Entered:05/02/2018
USCA Letter to District Court Clerk re:
forwarding Notice of Appeal on behalf
of Edward J. Mierzwa to District Court.
(Attachments: # 1 Letter)(ca3LD,)
(Entered: 05/02/2018)

05/02/2018

Clerk's Quality Control Message - Please
be advised, the Notice of Appeal 46 filed
on 04/26/2018 was filed without a filing
fee. Please submit the fee of $505 to our
Office immediately. Your check should
be made payable to Clerk, U.S. District
Court. In the alternative, an application
for In Forma Pauperis can be filed.
Please refer to the Court website at
www.njd.uscourt.gov for information
and forms, (dam, ) N/M (Entered:
05/02/2018)

Appendix I

75

05/02/2018

47

Exhibit to Notice ofAppeal (USCA), by
Edward J. Mierzwa. (sm) [Entered:
05/04/2018)

05/04/2018

48

USCA Case Number 18-2007 for Notice
of Appeal [USCA), filed by Edward J.
Mierzwa. USCA Case Manager James
[Document Restricted Court only)
[ca3jk,) [Entered: 05/04/2018)

05/04/2018

49

Motion to Change Venue by Edward J.
Mierzwa. [Attachments: # 1 Brief, # 2
Certificate of Service) (sm) (Entered:
05/07/2018)

05/07/2018

NEF of 46 Notice Of Appeal, Clerks QC
message re Filing Fee, and Appeal 1FP
Form mailed to Plaintiffs address, (dam,)
(Entered: 05/07/2018)

05/07/2018

Set Deadlines as to 49 Motion to Change
Venue. Motion set for 6/4/2018 before
Judge Madeline Cox Arleo. Unless
otherwise directed by the Court, this
motion will be decided on the papers and
no appearances are required. Note that
this is an automatically generated
message from the Clerk's Office and does
not supersede any previous or
subsequent orders from the Court, (sm)
(Entered: 05/07/2018)

Appendix I

76

05/07/2018

50

Notice of Appeal as to 40 Order on
Motion for Judgment on the Pleadings,,,
Order on Motion to Dismiss/Lack of
Jurisdiction,,,,, by Edward J. Mierzwa
Filing fee $505, receipt number
NEW036335. The Clerk's Office hereby
certifies the record and the docket sheet
available through ECF to be the certified
-list in lieu of the record and/or the
certified copy of the docket entries,
[dam,) [Entered: 05/08/2018)

05/07/2018

51

Motion for Leave to File Interlocutory
Appeal by Edward J. Mierzwa. (dam,)
(Entered: 05/08/2018)
Set Deadlines as to 51 Motion for Leave
to Appeal, set for 6/4/2018 before
Madeline Cox Arleo. Unless otherwise
directed by the Court, this motion will be
decided on the papers and no
appearances are required. Note that this
is an automatically generated message
from the Clerk's Office and does not
supersede any previous or subsequent
orders from the Court, (dam,) (Entered:
05/08/2018)

05/08/2018

05/11/2018

52

Transcript Purchase Order by Edward J.
Mierzwa (Attachments: # 1 Attachment
- Claim for Damage, Injury or Death, # 2
Envelope)(dam,) (Entered: 05/15/2018)

Appendix I
77

05/15/2018

53

Order that Mr. Mierzwa’s Motion for
Change of Venue and Motion to File
Documents Electronically 42 are hereby
administratively terminated as moot
Ordered that the Clerk shall provide a
copy of this Order to the pro se
defendant in this case. Signed by
Magistrate Judge Steven C. Mannion on
5/8/2018. (sm) (n/m) (Entered:
05/16/2018)

PACER Service Center Transaction Receipt
Appendix I

Fox Rothschild LLP
Formed in the Commonwealth of Pennsylvania
By: John C. Atkin, Esq.
Princeton Pike Corporate Center
997 Lenox Drive, Building 3
Lawrenceville, NJ 08648-2311
Tel: (609) 896-3600
Fax: (609) 896-1469
iatkin@foxrothschild.com
Attorneys for Plaintiff Strike 3 Holdings, LLC
United States District Court for The District of New Jersey
Civil Case 2:18-cv-02625-KM-JBC
Strike 3 Holdings, LLC, Plaintiff
v.
John Doe subscriber assigned IP address 100.35.112.153,
Defendant

Appendix I
78

Order
This Matter having been opened to the Court by John C.
Atkin, Esq., on behalf of Plaintiff Strike 3 Holdings, LLC
("Plaintiff), on a Motion for Leave to Serve a Third Party
Subpoena Prior to a Rule 26(f) Conference; it appearing
that Defendant has not yet been served in this matter; the
Court having considered Plaintiffs written submissions in
connection with the motion pursuant to Federal Rule of
Civil Procedure 78, and for good cause shown, It is on this
6th day of April. 2018, ORDERED that Plaintiff nuy serve the
Service Provider ("ISP") with a Rule 45 subpoena
commanding the ISP to provide Plaintiff with the Wue
name and address of the Defendant to whom the ISP
assigned an IP address as set forth on Exhibit A to the
Complaint [ECF No. 1-1]; and, It is further ordered that
Plaintiff shall attach to any such subpoena a copy of this
Order; and, It is further ordered that Plaintiff may also
serve a Rule 45 subpoena in the same manner as above on
any service that is identified in response to a subpoena as
a provider of Internet services to Defendant; and, It is
further ordered that if the ISP qualifies-as a "cable
operator," as defined by 47 U.S.C. § 522(5), which states:
the term "cable operator" means any person or group of
persons (A) who provides cable service over a cable
system and directly or through one or more affiliates owns
a significant interest in such cable system, or (B) who
otherwise controls or is responsible for, through any
arrangement, the management and operation of such a
cable system, it shall comply with 47 U.S.C. § 551(c)(2)(B),
which states: A cable operator may disclose such [personal
identifying] information if the disclosure is . . . made
pursuant to a court order authorizing such disclosure, if
the subscriber is notified of such order by the person to
whom the order is directed, by sending a copy of this Order
to the Defendant; and
Appendix I
79

It is further ordered that Plaintiff may only use the
disclosed in response to a Rule 45 subpoena served on the
ISP for the purpose of protecting and enforcing Plaintiffs
rights as set forth in its Complaint [ECF No. 1].
By: /s/James B. Clark
The Honorable James B. Clark, III
United States Magistrate Judge
ERRORS COMMITED BY THE TRIAL COURT AND
6.
ARGUMENTS FOR REVERSAL OF ORDERS ECF No. 40; ECF
No. 42; ECF No. 53
Appellant/Plaintiff was not afforded the Constitutionally
guaranteed right to a fair and impartial tribunal within the
United States District Court for the District of New Jersey.
From the outset, the Complaint was earmarked for a fast
track pre-trial Dismissal for the sole reason of the two-year
Statute of Limitations on a civil action for Deprivation of
Rights, 42 U.S.C. § 1983; however, with regard to the
anticipated claims to be made upon the John/Jane Does of
the United States Department of Justice [USDOJ] the
Discovery Rule effectively extends the Statute of
Limitations. The unwarranted actions and/or inactions of
the Court thwarted Discovery for the purpose of “case
dumping". The wrongdoings of the John/Jane Does of the
USDOJ are evident throughout the original Complaint, ECF
No. 1 and the Amended Complaint, ECF No. 24; whereby,
the pleadings and the corresponding exhibits clearly
illustrate the need for Discovery to properly identify the
personage responsible for the criminal activities vented
against this Appellant/Plaintiff seeking relief in this action.
It is obvious that allegations of misconduct by USDOJ
personnel are not speculative and "fair game" for
Appendix I
80

Discovery, as the Exemption clauses of the Freedom of
Information Act are not intended to suppress Obstruction
of Justice issues on behalf of USDOJ personnel.
Clearly, the necessity of the SF-95 Form is insignificant at
the present juncture; however, at the proper time, the
much-ballyhooed SF-95 Form will be executed with a sum
certain demand for damages; as supplemental pleadings
are anticipated to be filed.
Appellant respectfully requests:
Application of the trial de novo standard of review
by the Honorable Judges of the United States Court of
Appeals for the Third Circuit.
Vacating Order, ECF No. 40, in its entirety as Fraud
Upon the U.S. District Court for the District of New Jersey
predominated the pre-trial proceedings commencing with
the Office of the Clerk & all the way to the Chief Judge.
Effectuate partial summary judgment regarding
Appellee(sJ/Defendant(s), Diane Gaffney and James
Gaffney; a review of the Docket Report will show that an
additional opportunity to answer or make proper
application to the court for dismissal was provided. ECF
No. 36 presents the necessary arguments for granting
partial summary judgment in favor of Appellant/ Plaintiff
for reason of Default.
Effectuate partial summary judgment regarding
Appellee/Defendant, Arkadiusz M. Dudek; a review of the
Docket Report will show that an additional opportunity to
answer or make proper application to the court for
dismissal was provided. Adversary presented a frivolous
Motion for Judgment on the Pleadings, ECF No. 32;
material facts were presented in opposition papers, ECF
No. 35, and were not considered by the Court. In a fair &
Appendix I

81

impartial tribunal, grounds for granting partial summary
judgment in favor of Appellant/Plaintiff are
overwhelming, as additional issues do not remain.
Vacating Order, ECF No. 42, in its entirety and
granting an Order with regard to ECF No. 38,
Appellant/Plaintiff Motion for Scheduling a Rule 16
Conference and Vacating ECF No. 23; as it is necessary to
conduct Discovery for the purpose of case related fact
finding, as additional triable issues remain. Appellee/
Defendant application for Motion to Dismiss by United
States of America, ECF No. 34, should be denied;
opposition papers, ECF No. 35, provide material facts for
the Court to consider.
Order a Change of Venue from the United States
District Court for the District of New Jersey to the United
States District Court for the Southern District of New York,
Foley Square; and, Leave of the Court to File Documents
Electronically, see ECF No. 49.
At the time of filing of ECF No. 49, the status of the appeal
was not clear to Appellant/Plaintiff; as jurisdiction has
been transferred to the U.S. Court of Appeals, resulting in a
moot status at the U.S. District Court, see ECF No. 53. A
Tort Claim Notice, ECF No. 52, was filed with the Office of
the U.S.D.C. Clerk as a first step towards addressing Fraud
Upon the Court issues by the Officers of the Court.
Unquestionably, the pre-trial errors are genuinely harmful
and reversable upon this appeal.
The errors in this case are clearly criminal and not the
work of a single wrongdoer. The drop-box pickup
occurred at the start of the regular court business day, on
Monday 17 April 2017; the prior court business day was
Thursday 13 April 2017. A time and date sensitive
document, ECF No.l, was stamped utilizing the courthouse
date/time stamp machine, recording the filing date of
Appendix I
82

i

Thursday 13 April 2017 and inserted in the drop-box
found in the lobby of the courthouse moments later. It is
unconscionable that the Office of the U.S.D.C. Clerk would
err by recording an incorrect date of Monday 17 April
2017 on the Docket Report. As this matter was brought to
the attention of the Chief Judge, whose duties include
overseeing the Office of the Clerk, it was glossed over and
no corrective action was taken, see ECF No. 16 and ECF No.
30. The presiding judge exploited these consensual errors
for wrongful purposes in the dismissal of the case, see ECF
No. 40; all without regard to exhibiting extreme judicial
bias against Appellant/Plaintiff. As noted earlier in this
brief, the presiding judge substituted an Order signed on
the same day by a different judge with a nearly identical
docket number [2:17-cv-2625 vs. 2:18-cv-2625] into the
record. The presiding judge demonstrated contempt for
the Federal Rules of Civil Procedure and Canons by: (1)
allowing non-conforming filings that lacked any shred of
substance to prevail over well-founded documents that
strictly adhered to the Federal Rules of Civil Procedure; (2)
authoring an Opinion, ECF No. 40, that included statements
rooted in ex. parte communications "... and it appearing
that the no contact order, at best, a continuing ill effect
stemming from the Gaffney's and Dudek's alleged
wrongdoings ..."; (3) not adhering to motion return dates
on a timely basis, all for the purpose of quashing potential
rebuttals; (4) instructing personnel in chambers and the
Office of the Clerk to remain mum with regard to any
diligent inquiry about case status; (5) instructing
personnel within the Office of the Clerk to backdate filings
for the purpose of presenting a well-honed Docket Report;
(6) instructing personnel within the Office of the Clerk not
to enter documents, mailed or hand carried by
Appellant/Plaintiff, into the Docket Report. A myriad of
personnel did not do the right thing. Be it a small group of
opportunists, informal directives of the organization
Appendix I
83

and/or poor stewardship by the Chief Judge of the U.S.D.C.
for the District of N.J., managerial incompetence is the
driving force of daily operations; easily resulting in the
Obstruction of Justice. This scenario compares to the
judiciaries of Third World banana republics such as Cuba.
It takes a scandal to cover up a scandal. It's no secret that
litigation is stressful and with regard to this matter, has
adversely impacted the well-being of this Appellant/
Plaintiff; as the kangaroo court antics of the U.S.D.C. for the
District of New Jersey were intended to machinate a gross
injustice; and, in the process caused great emotional harm
to this petitioner. FYI, mission accomplished.
For reasons stated in this informal brief and ECF No. 49,
Motion for Change of Venue and Leave to File
Electronically, Appellant/Plaintiff respectfully entreats the
Honorable Judges of the U.S.C.A. of the 3rd Circuit to grant
this request.
I certify that the foregoing statements are true. I am aware
that if any of the foregoing statements made by are
willfully false, I am subject to punishment.
Dated this 05th of June 2018
/s/Edward J. Mierzwa, Appellant

Appendix I
84

Office of The Clerk
United Court of Appeals for The Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia. PA 19106-1799
Website: www.ca3.uscourtsgov
Patricia S. Dodszuweit, Clerk
Telephone: 215-597-2995
May 2,2018
William T. Walsh, Clerk
United States District Court
PO Box 419
Newark, NJ 07101-0419
RE: Mierzwa v. Ashcroft, et al
D.N.J. No. 2-17-cv-02625
Dear Mr. Walsh,
Pursuant to Rule 4(d), Federal Rules of Appellate
Procedure, and Rule 3.4, Third Circuit Local Appellate
Rules, we are forwarding the attached notice of appeal
from the District Court Order (#40) entered 4/6/18 which
was filed with this office in error. See Rule 3(a)(1), Federal
Rules of Appellate Procedure and Rule 3.4, Third Circuit
Local Appellate Rules. The notice was received in this
Court on 4/26/18 and should be docketed as of that date.
This document is being forwarded solely to protect the
litigant's right to appeal as required by the Federal Rules
of Appellate Procedure and Rule 3.4, Third Circuit Local
Appellate Rules. Upon receipt of the document, kindly
process it according to your Court's normal procedures. If
your office has already received the same document,
please disregard the enclosed copy to prevent duplication.
Pursuant to Rule 3(a)(1) Federal Rules of Appellate
Procedure, a notice of appeal must be filed with the Clerk
Appendix O
85

of the Court. This Court may not act on an appeal until the
notice has been docketed in the District Court and certified
to this Court by the District Court Clerk. Thank you for your
assistance in this matter.
Very truly yours,
Patricia S. Dodszuweit, Clerk
PSD/lld
Enclosure
cc: Edward J. Mierzwa (w/out enclosure)

Appendix 0

To: United States Court of Appeals
RE: Edward Mierzwa v. Arkadiusz Dudek, et al
Case Number: 18-2007
District Court Case Number: 2-17-cv-02625
Please accept this letter that it is my intention not to
participate in this appeal. This man has harassed my family
since 2006. Any punishments he received from the police
and courts are because of the actions that he choose to do.
When will the Courts say enough is enough with this
frivolous law suit and protect me from this ongoing
harassment. I am a hard working individual who goes to
work every day while this man sits home typing and tying
up me and the court system. THIS HAS BEEN GOING ON
FOR THE PAST 12 YEARS! When will the court finally
protect myself and my family from this man?
Dated: 05/08/2018
/s/ Diane Gaffney
49 Scudder Street
Garfield, New Jersey 07026
Appendix P
86

Letter to the United States Court of Appeals
To:

From:
Reason:
Date:
Re:

Office of the Clerk of the US Court of Appeals
James E. Gaffney
60 Bloomingdale Ave Garfield NJ 07644
Edward Mierzwa vs Arkadiusz Dudek
Notify court that I will not be participating in
this appeal
5/23/18
Case number 18-2007

Dear Clerk of the US Court of Appeals,
My name is James Gaffney and I am writing you to inform
you that I will not be participating in this appeal by Edward
J. Mierzwa. Thank you and have a great day.
/s/James E. Gaffney
60 Bloomingdale Ave
Garfield, NJ 07026
Appendix Q
Form
United States Court of Appeals for The Third Circuit
Civil Appeal Information Statement
Counsel for Appellant: This statement is due to be filed
with the Clerk of the Court of Appeals not later than 14
days from the docketing of the notice of appeal.
Short caption with identity of Appellant: Edward J.
Mierzwa, Appellant vs. Arkadiusz M. Dudek, et al, Appellee
Appendix R

87

Appeal from District Court:
District of New Jersey, Vicinage of Newark
D.C. Docket No.: 2:17cv02625 - MCA - SCM
Date proceedings initiated in D.C.: 13 April 2017
Date Notice of Appeal filed: 26 April 2018 [Motion for
Interlocutory Appeal]: 07 May 2018 [NOA1
USCANo.: 18-2007
Counsel on Appeal
Appellant:
Edward J. Mierzwa, pro se
11 Brook St, Hackensack, NJ 07601-1509
(973) 340-7954
Appellee(s)

Arkadiusz M. Dudek, Appellee
Daniel R. Bevere, Esq., Respondent
Direct: 973-661-0710
Email: dbevere@pimzinnalaw.com
Fax: 973-661-5157
Piro Zinna Cifelli Paris & Genitempo
360 Passaic Avenue
Nutley, NJ 07110
United States of America, Appellee
Kruti Dharia, Esq., Respondent
Direct: 973-645-2891
Email: kruti.dharia@usdoj.gov
Fax: 973-297-2010
Office of United States Attorney
970 Broad Street, Room 700
Newark, NJ 07102

Is this a cross appeal? No.
Was there a previous appeal in case? No.
To your knowledge is there any case now pending or about
to be brought before this Court or any other court or
administrative agency which: (a)Arises from substantially
the same case or controversy as this appeal? No.
Appendix R
88

(b) Involves an issue that is substantially the same, similar,
or related to an issue in this appeal? No.
Nature of Suit:

civil rights, assault/defamation,
equal access to justice

This is to certify that this civil appeal information
statement was filed with the Clerk of the U.S. Court of
Appeals for the Third Circuit and a copy hereof served to
each party or their counsel of record this 7th day of May,
2018
Signature of Counsel:/s/ Edward J. Mierzwa
Appendix R
Note: relevant data from USCA General Docket, dated 04
May 2018 has been incorporated into the Civil Appeal
Information Statement (Appendix R)
Appendix S
Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States Court of Appeals for The Third Circuit
Civil Action
Case No.: 18-02007
Edward J. Mierzwa, Appellant
vs.

John Ashcroft, Alberto Gonzalez, Paul Clement, Peter
Keisler, Michael Mukasey, Christopher Christie, Ralph
Marra, Jr., Paul J. Fishman, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, United States of America, John
Does 1-100, Jane Does 1-100, Appellee(s)
Appendix T
89

Motion to Proceed on The Original Record and Waiving the
Requirement of Transcript
Notice is hereby given that Movant, Edward J. Mierzwa, the
Appellant in this appeal hereby appeals to the United
States Court of Appeals for The Third Circuit to grant Order
for Leave to Proceed on the Original Record; the record
will show that all decisions made by Hon. Madeline Cox
Arleo, U.S.D.J. and Hon. Steven C. Mannion, U.S.M.J. were
based upon the papers submitted. To the best of
knowledge and belief of Appellant, the hearing has not
been recorded; therefore, exempting Appellant from filing
Transcript Purchase Order.
Dated this 07th of May 2018.
/s/Edward J. Mierzwa, Movant/Appellant
Appendix T
Edward J. Mierzwa, Appearing Pro Se
11 Brook Street
Hackensack NJ 07601-1509
Tel: (973) 340-7954
United States District Court for District of NJ
Civil Action No. 2:17-cv-02625-MCA-SCM
Edward J. Mierzwa, Plaintiff
vs.

United States of America, John Doe(s) 1-100, Employee of
United States Department of Justice, as an individual and
official and personal capacities, Jane Does 1-100,Employee
of United States Department of Justice, as an individual and
official and personal capacities, Arkadiusz M. Dudek, Diane
Gaffney, James Gaffney, Defendant(s)
Amended Complaint
Demand Made for Jury Trial
Appendix U
90

Nature of the Complaint
1. This is a civil rights action under 42 U.S.C. § 1983 for
Deprivation of Civil Rights protected by the Constitution of
the United States and the New Jersey State Constitution.
The overt abuse of power by the Judiciary and Prosecution
for the State of New Jersey in conjunction with
Defendant(s), John Doe and Jane Doe employed by
Defendant, United States of America within the United
States Department of Justice (USDOJ), did maliciously
destroy Plaintiff, all for benefit of their own personal
agendas. Plaintiffs initial contact with the USDOJ
transpired on 29 March 2004 drawing attention to: (a)
malevolent harassment by police with regard to delivery
of federal court filings; (b) unprovoked harassment by the
driver of a federal government vehicle while walking the
dogs. The USDOJ response of 19 April 2004 established a
pattern of non-intervention that led to retaliation by law
enforcement by means of malicious prosecution of a
myriad of wrongful and unlawful criminal complaints by
the State of New Jersey, mostly originated by
Complainants, Diane Gaffney and James Gaffney who are
named Defendants in this action. Fraud upon the Court
was blatant at all levels of the New Jersey Judiciary by
numerous judges, court staff & prosecution personnel; all
with no regard for N.J.S.A. § 10:6-1 et seq., the New Jersey
Civil Rights Act. A resolute campaign of harassment was
directed against the Plaintiff for the purpose of
manufacturing a vicious criminal record and vilification;
wrongfully utilizing the New Jersey taxpayer funded
resources for personal vendetta(s) to punish the Plaintiff
who was purely exercising his Federal and State
Constitutional Rights in a federal court proceeding, clearly
engaging in a “witch hunt”. Attached to the Complaint are
Exhibits A through U; consisting of Plaintiffs pleas for
intervention by the USDOJ as the scandal caused by the
Appendix U
91

State of New Jersey exacerbated. The USDOJ reneged on its
mission to enforce the laws of the land on behalf of a
natural born citizen of the United States. There are aspects
of the biblical Good Samaritan standard that was
compromised by Defendant(s), John Doe(s) and Jane
Doe(s) employed by Defendant, United States of America
(USA) within the USDOJ; whereby, a victim of a brutal
beating was in dire need of assistance and was ignored by
those able to assist. On 10 October 2005, retaliation by
New Jersey law enforcement personnel resulted in
physical and emotional maiming upon the Plaintiff that
required emergent & long term medical attention. The
USDOJ was contacted again on October 11, 2005 and
negligently declined to intervene. This was the impetus for
additional law enforcement retaliation in conjunction with
the Judiciary of the State of New Jersey, caused under the
color of law and authority, all being criminally utilized to
the detriment of the Plaintiff. During the later phases of the
State of New Jersey vs. Mierzwa imbroglio, it was
necessary to research court documents for matters
already on appeal with the Superior Court of New Jersey.
Pursuant to New Jersey Court Rule 1:38, Public Access to
Court Records and Administrative Records; this Plaintiff
utilized the proper protocol by filling out the prescribed
New Jersey Judiciary Records Request Form. Court
personnel refused to tender any and all pertinent
Discovery documents; on one occasion, municipal court
personnel attempted to wrest the sum of fifty-five dollars
to allow the Plaintiff to view the files. The Appellate
Division of the Superior Court of New Jersey upheld the
county court's position; a timely Petition for Certification
was filed with no deficiencies. Yet, the Supreme Court of
New Jersey refused to back its own Directives and proceed
with the Petition for Certification. The USDOJ was
contacted several times in 2010 regarding Discovery
issues of New Jersey Judiciary Records; constituting the
Appendix U
92

final contact with the USDOJ. Again, the USDOJ disregarded
the need to take action. On 11 October 2011, Plaintiff
sought relief through the court of last resource and filed in
the Supreme Court of the United States in re Edward J.
Mierzwa, Petitioner's Application to United States
Supreme Court Justice Samuel Alito, Docket Number 117091, text as follows:
Questions Presented
The Constitution guarantees the citizenry of the
United States equal protection of the laws and the
right to counsel for representation in a tribunal
characterized as neutral with the unwavering
commitment to uphold the laws of the land, all for the
proper administration of justice for all.
Can a double standard be justified on behalf of errant
personnel of a state judiciary and its prosecution
exercising criminal abuse of authority directed
against a victim of police brutality for the purpose of
covering up a wrongful arrest?
Statement of the Case:
A wrongful arrest was effected by the Police
Department of Garfield, New Jersey on 10 October
2005. Abuse of process ensued with the signing of
twenty-nine frivolous municipal complaints, of which
eight have been Ordered for rehearing by the
Appellate Division of the Superior Court of New
Jersey; the remaining complaints have been
dismissed during the course of the last six years.
At the present juncture, Petitioner is constrained to a
third round of trials due to the extreme misconduct
by the prosecution & judiciary for the State of New
Jersey.
Appellate Brief, Appendix U, documents the tortured
procedural history of the eight complaints slated for
retrial. In lieu of addressing the rational arguments
supporting the dismissal of the complaints, the
Appellate Division of the Superior Court of New
Jersey opted to allow the prosecution

Appendix U
93

"multiple shots at the apple" for reason that the
Presiding Judge of the Municipal Court refused to
comply with a previous Order that originated in the
Appellate Court
Throughout the proceedings. Petitioner was barred
from researching case files and pertinent sound
recordings of the proceedings, Appendix L.
Reasons for Granting the Writ:
The objective of this application is to convey
Petitioner’s past, present and near future dilemma(s)
regarding the inability and unwillingness of the State
of New Jersey to provide a speedy trial in a fair and
impartial tribunal; in the interest of justice, Petitioner
implores the court of last resort, the Supreme Court
of the United States, to intervene.
The Supreme Court of the United States has
emphasized that "a presumption of openness inheres
in the very nature of a criminal trial under our system
of justice", Richmond Newspapers, Inc. v. Virginia,
448 U.S. 555 (1980].
The impact on the Appellate Brief, Appendix U,
caused by the denial to access judicial records,
undermined the arguments for the disposal of eight
complaints, dated October 2005 thru October 2006,
remanded for retrial. At the time of the origination of
the complaints, the Judge of the Municipal Court
never advised Petitioner of the right to assigned
counsel at public expense, as per New Jersey Court
Rule 7:3-2. The sixty day prosecution benchmark is
long gone; see State of New Jersey v. Fox, 249 N.J.
Super. 521,523 [1991]. Additionally, the negligence
of the State of New Jersey to properly dispose of the
controversy is beyond the responsibility of the
Petitioner, citing State of New Jersey v. Perkins, 219
N.J. Super. 121, 124 (1987]. The State remains
cognizant of these issues, see Appendices L thru V;
likewise aware that the judges of the entire Judiciary
of the State of New Jersey exhibited conduct worthy
of criminal prosecution and subsequent
impeachment.

Appendix U
94

Moreover, the access denial of judicial records
compromised speedy trial(s); as the four prong test
of Barker v. Wingo, 407 U.S. 514, 530, 92 S. Ct 2182,
2192, 33 L. Ed.2d 101, 117-18 (1972) could be
realized.
From the onset, the proceedings by the State of New
Jersey were mired with secret proceedings, U.S.C. 42
§ 1985, resulting in a multitude of filings by the
Petitioner to rectify the harm caused, mostly to no
avail. Under the cloud of credibility and immunities
afforded, the honorable public servants of the State of
New Jersey engaged in deliberate acts of Obstruction
of Justice, U.S.C. 18 § 1961.
The Directives, Appendices I and J, of the New Jersey
Supreme Court were dishonored by all levels of the
state judiciary; whereby, a perfected appeal was filed
with the Appellate Division of the Superior Court of
New Jersey, Appendix L. The appeal was dismissed,
Appendix G. The truthfulness and sensitivity of the
papers submitted by Petitioner did not allow for any
backpedaling. Much to the chagrin of the New Jersey
Supreme Court, Petitioner filed Motion for the
Joinder of Actions and Certification of the Appellate
Court Decisions. The denial of appointment of
counsel and joinder of actions can be described as
ethical turpitude, see Appendix A, B, F, G, P thru T.
Petitioner endured and continues to suffers from: (a)
public humiliation; (b) three week loss of motor
vehicle driving privileges due to lower court
administrator criminal contempt of upper court
Order staying fines pending appeal; (c) emotional
distress from experiencing three wrongful
incarcerations totaling fifty-one days & unrestricted
jail records access via internet; (d) injury to one’s self
esteem and good name; (e) trauma, stress, anxieties
and depression requiring psychiatric care; (f) the
drain on meager personal finances; see, Moore v.
Arizona, 414 U.S. 25, 94 S. Ct 188, 38 L. Ed.2d 183
(1973).

Appendix U
95

The lack of accountability and the blatant disregard
of 1st, 4th, 6th and 14th Amendment Rights by the
State of New Jersey calls for the Supreme Court of the
United States to intervene and enforce the Civil
Rights accorded to Petitioner.

On the hearing date of 25 April 2012, the remaining eight
cases were disposed in favor of Edward J. Mierzwa. On 17
April 2015, the Superior Court of New Jersey vacated the
No Contact Order with regarding these matters.
Parties
2. Plaintiff, Edward J. Mierzwa, residing at 11 Brook Street,
in the City of Hackensack, in the County of Bergen, in the
State of New Jersey.
3. Defendant, United States of America located at 1600
Pennsylvania Avenue, in Washington, District of Columbia,
is being sued under 42 U.S.C. § 1983.
4. Defendant, John Doe(s) 001 - 100, Employee of United
States Department of Justice, in his individual and official
and personal capacities, is being sued under 42 U.S.C. §
1983, address unknown.
5. Defendant, Jane Doe(s) 001 - 100, Employee of United
States Department of Justice, in her individual and official
and personal capacities, is being sued under 42 U.S.C. §
1983, address unknown.
6. Defendant, Arkadiusz M. Dudek, residing at 246 Banta
Avenue in the City of Garfield, in the County of Bergen, in
the State of New Jersey, is being sued under 42 U.S.C. §
1983.
7. Defendant, Diane Gaffney, residing at 49 Scudder Street,
in the City of Garfield, in the County of Bergen, in the State
of New Jersey, is being sued under 42 U.S.C. § 1983.
Appendix U
96

8. Defendant, James Gaffney, residing at 49 Scudder Street,
in the City of Garfield, in the County of Bergen, in the State
of New Jersey, is being sued under 42 U.S.C. § 1983.
Jurisdiction and Venue
9. The United States District Court (USDC) has jurisdiction
over this action pursuant to:
28 U.S.C. § 1331, Federal Question
28 U.S.C. § 1343(a), Deprivation of Civil Rights
28 U.S.C. § 1346(b)(1), USA as Defendant
42 U.S.C. § 1985, Conspiracy to Interfere with Civil Rights
42 U.S.C. § 1986, Action for Neglect to Prevent
42 U.S.C. § 1988, Proceedings in Vindication of Civil Rights
42 U.S.C. § 1983, Civil Action for Deprivation of Rights
18 U.S.C. § 241, Conspiracy Against Civil Rights
28 U.S.C. § 2672, Administrative Adjustment of Claims
28 U.S.C. § 2674, Liability of United States
28 U.S.C. § 2675, Disposition by Federal Agency as
Prerequisite; Evidence
28 U.S.C. § 2677, Compromise
because this action arises under the Fourth, Fifth, Sixth and
Fourteenth Amendments to the Constitution of the United
States.
10. The USDC has supplemental jurisdiction over Plaintiffs
New Jersey State Constitution and State Law claims
pursuant to 28 U.S.C. § 1367.
11. To the extent that Title 59 of the New Jersey Statutes
imposes jurisdictional requirements, Plaintiff has
complied with all such requirements applicable to his
claims. Plaintiff timely served the City of Garfield, New
Jersey and the State of New Jersey with notices of claims as
required by Title 59.

Appendix U
97

12. Venue is proper in this jurisdiction pursuant to 28
U.S.C. § 1391(b)(2) in that the substantial part of the
events or omissions giving rise to this action occurred in
this judicial district.
Declaratory Statement of Matters Regarding the Federal
Tort Claims Act
13. On 28 March 2007, Plaintiff hand carried a Datadisk,
Calendar Journal and Letter of Transmittal to the United
States Department of Justice (USDOJ) Inspector General
Field Office in New York, New York. The Calendar Journal
outlined the illicit activities by New Jersey officials & the
concurrent federal court activities; in effect, a
comprehensive, exhaustive administration requirement
with regard to Defendant, United States of America (USA)
and/or its employees, Defendant(s), John Doe and/or Jane
Doe, within the USDOJ. Exhibit M
14. On 18 January 2008, Plaintiff contacted the USDOJ
Office of Professional Responsibility with regard to the
inaction by the USDOJ with reference to If 12. Exhibit N
15. On 11 March 2008, Plaintiff received notification from
the USDOJ Office of Professional Responsibility that "no
further action will be taken in this matter". Exhibit P
16. The communication of 28 March 2007 did meet and
exceed the key elements of Standard Form 95 [Rev.
2/2007] prescribed by Department of Justice, 28 CFR 14.2;
(SF-95) Claim for Damage, Injury or Death.
17. The pleadings of this Amended Complaint comports
with the Four Prong Test that is necessary to pursue
restitution pursuant to the Federal Tort Claims Act:
(a) Defendant(s), John Doe and/or Jane Doe are employed
by the USDOJ; a governmental department of Defendant,
USA. These federal employees were acting within the
scope of official duties.
Appendix U
98

(b) On multiple occasions, federal employees,
Defendant^}, John Doe and/or Jane Doe did act negligently
and wrongfully.
(c) Plaintiffs physical and emotional injuries were caused
by the negligent and wrongful acts of federal employees.
(d) The negligent and wrongful acts of said federal
employees did proximately cause injury and damage to
Plaintiff.
Prior to the trial, Plaintiff will furnish reports from medical
experts and attending physicians.
Declaratory Statement of Timely Filing
18. On 17 April 2015, an Order was signed by the Superior
Court of New Jersey to conclude matters related to State of
New Jersey vs. Edward J. Mierzwa. Pursuant to the
Continuing Torts Doctrine, the statute of limitations for
continuing offenses commences on the date that brings to
an end all of the matters involved. Plaintiff cites New
Jersey Court Rule 4:30A, The Entire Controversy Doctrine,
whereby, the consolidation of actions is stipulated; this
filing fully complies with the statute of limitations for
Plaintiffs claims.
Plaintiffs Demand for Discovery
19. Pursuant to the provisions of FRCVP 26, Plaintiff
demands Discovery.
Procedural History and Disposition of Criminal Complaints
Captioned State of New Jersey vs. Edward J. Mierzwa
20. On 14 December 2005, a criminal complaint for
littering, citing City of Garfield [NJ] Ordinance 1992, was
filed against Edward J. Mierzwa by Complainant, James
Gaffney, State of New Jersey Docket No. 0221-SC-004851.
Appendix U
99

A trial was held in the Garfield Municipal Court of the
Superior Court of New Jersey on 27 July 2006 and
concluded with a not guilty finding in favor of Edward J.
Mierzwa.
21. On 06 February 2006, a criminal complaint was filed
against Edward J. Mierzwa by Complainant, Diane Gaffney,
State of New Jersey Docket No. 0221-SC-004202. A trial
was held in the Garfield Municipal Court of the Superior
Court of New Jersey on 27 July 2006 and concluded with: a
finding of guilty for littering, City of Garfield [NJ] Ordinance
1992; and, Court Costs and Fine(s) in the amount of
$100.00 assessed against Edward J. Mierzwa. On 09
February 2007, upon the completion of trial de novo
before the Superior Court of New Jersey, Vicinage 2, Docket
No. 06-176, the decision was reversed in favor of Edward
J. Mierzwa. On 03 July 2007, a Stay of All Fines was
stipulated by Judge William Meehan of the Superior Court
of New Jersey, Vicinage 2, Docket No. 06-176. On 28
January 2009, the State of New Jersey Motor Vehicle
Commission wrongfully suspended New Jersey driving
privileges against Edward J. Mierzwa, citing non-payment
of fines; on 23 February 2009, the State of New Jersey
Motor Vehicle Commission reinstated the New Jersey
driving privileges of Edward J. Mierzwa; incurring out-ofpocket costs of $11.
22. On 19 February 2006, a criminal complaint citing
parking on the sidewalk, N.J.S.A. 39:4-138 was filed against
Edward J. Mierzwa by Complainant, Police Officer John
Doe, Badge No. Unknown of the City of Garfield [NJ] Police
Department, State of New Jersey Docket No. 0221-L008116. A trial was held in the Garfield Municipal Court of
the Superior Court of New Jersey on 27 July 2006 and
concluded with a not guilty finding in favor of Edward J.
Mierzwa.
Appendix U
100

23. On 02 March 2006, a criminal complaint citing City of
Garfield [NJ] Ordinance No. 970 regarding dog Licensing
was filed against Edward J. Mierzwa by Complainant,
Police Officer Arkadiusz Dudek, Badge No. 180 of the City
of Garfield [NJ] Police Department, State of New Jersey
Docket No. 0221-SC-004692. A trial was held in the
Garfield Municipal Court of the Superior Court of New
Jersey on 27 July 2006 and concluded with a not guilty
finding in favor of Edward J. Mierzwa.
24. On 11 March 2006, a criminal complaint was filed
against Edward J. Mierzwa by Complainant, James Gaffney,
State of New Jersey Docket No. S-2006-00183-0221. The
first trial was held in the Garfield Municipal Court of the
Superior Court of New Jersey on 27 July 2006 and
concluded with: a guilty finding of harassment, N.J.S.A.
2C:33-4(a) PDP; Court Costs and Fine(s] in the amount of
$658.00 assessed against Edward J. Mierzwa; and,
incarceration for sixty days including probation for one
year. A trial de novo followed in the Superior Court of New
Jersey 13 Vicinage 2; on 09 February 2007, the findings of
the Lower Court were affirmed. On 10 April 2007, upon
appeal before the Superior Court of New Jersey 0
Appellate Division, Docket No. A-3823-06T5, matters were
remanded for a new trial. On 09 March 2007, Edward J.
Mierzwa was Ordered to report to the Bergen County [NJ]
Probation Department on 21 March 2007, Case No. 55315.
The probation commenced on 09 February 2007 for a
mandated period of two years. On 03 July 2007, a Stay of
All Fines was stipulated by Judge William Meehan of the
New Jersey Superior Court. On 28 January 2009, the State
of New Jersey Motor Vehicle Commission wrongfully
suspended New Jersey driving privileges against Edward J.
Mierzwa, citing non-payment of fines;
Appendix U
101

on 23 February 2009, the State of New Jersey Motor
Vehicle Commission reinstated the New Jersey driving
privileges of Edward J. Mierzwa; incurring out-of-pocket
costs of $11. Another trial was held in the Municipal Court
for Vicinage 2 of the Superior Court of New Jersey
commencing on 27 August 2009 and concluded with a
finding of guilty on 10 September 2009. Another trial de
novo followed in the Superior Court of New Jersey 0
Vicinage 2, Docket No. 09-097; on 15 March 2010, the
findings of the Lower Court were affirmed and concluded
with: a finding of guilty for harassment, N.J.S.A. 2C:33-4(a)
PDP; Court Costs and Fine(s) in the amount of $408.00
assessed against Edward J. Mierzwa. On 03 June 2011,
upon appeal before the Superior Court of New Jersey 0
Appellate Division, Docket No. A-3455-09T2, matters were
remanded for another trial. On the hearing date of 25 April
2012, the case was disposed in favor of Edward J. Mierzwa.
On 17 April 2015, the Honorable James J. Guida, Judge for
the Superior Court of New Jersey vacated the No Contact
Order with regard to this matter.
On 17 March 2006, a criminal complaint for
25.
harassment, citing N.J.S.A. 2C:33-4(a}, was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. S-2006-00188-0221. A trial was
held in the Garfield Municipal Court of the Superior Court
of New Jersey on 27 July 2006 and concluded with a finding
of not guilty in favor of Edward J. Mierzwa. On 17 April
2015, the Honorable James J. Guida, Judge for the Superior
Court of New Jersey vacated the No Contact Order with
regard to this matter.
On 26 March 2006, a criminal complaint was filed
26.
against Edward J. Mierzwa by Complainant, Diane Gaffney,
State of New Jersey Docket No. S-2006-00202-0221. The
first trial was held in the Garfield Municipal Court of the
Superior Court of New Jersey on 27 July 2006 and
Appendix U
concluded with:
102

a finding of guilty for harassment, N.J.S.A. 2C:33-4(c); Court
Costs and Fine(s) in the amount of $658.00 assessed
against Edward J. Mierzwa; and, incarceration for sixty
days including probation for one year. On 09 February
2007, upon the completion of trial de novo before the
Superior Court of New Jersey, Vicinage 2, Docket No. 06176, the decision of the Lower Court was affirmed. On 09
March 2007, Edward J. Mierzwa was Ordered to report to
the Bergen County [NJ] Probation Department on 21
March 2007, Case No. 55315. The probation commenced
on 09 February 2007 for a mandated period of two years.
On 10 April 2007, upon appeal before the Superior Court
of New Jersey 0 Appellate Division, Docket No. A-382306T5, matters were remanded for a new trial. On 03 July
2007, a Stay of All Fines was stipulated by Judge William
Meehan of the New Jersey Superior Court, Docket No. 06176. On 28 January 2009, the State of New Jersey Motor
Vehicle Commission wrongfully suspended New Jersey
driving privileges against Edward J. Mierzwa, citing non­
payment of fines; on 23 February 2009, the State of New
Jersey Motor Vehicle Commission reinstated the New
Jersey driving privileges of Edward J. Mierzwa; incurring
out-of-pocket costs of $11. Another trial was held in the
Municipal Court for Vicinage 2 of the Superior Court of
New Jersey commencing on 27 August 2009 and concluded
with a guilty finding on 10 September 2009. Another trial
de novo followed in the Superior Court of New Jersey,
Vicinage 2, Docket No. 09-097; on 15 March 2010, the
findings of the Lower Court were affirmed and concluded
with: a guilty finding of harassment, N.J.S.A. 2C:33-4(c);
Court Costs and Fine(s) in the amount of $458.00 assessed
against Edward J. Mierzwa. On 03 June 2011, upon appeal
before the Superior Court of New Jersey, Appellate
Division, Docket No. A-3455-09T2, matters were
remanded for another trial. On the hearing date of 25 April
2012, the case was disposed in favor of Edward J. Mierzwa.
Appendix U
103

On 17 April 2015, the Honorable James J. Guida, Judge for
the Superior Court of New Jersey vacated the No Contact
Order with regard to this matter.
27. On 27 March 2006, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(a) PDP was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. S-2006-00204-0221. A trial was
held in the Garfield Municipal Court of the Superior Court
of New Jersey on 27 July 2006 and concluded with a not
guilty finding in favor of Edward J. Mierzwa. On 17 April
2015, the Honorable James J. Guida, Judge for the Superior
Court of New Jersey vacated the No Contact Order with
regard to this matter.
28. On 28 March 2006, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(cJ PDP was signed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. S-2006-00228-0221. A trial was
held in the Garfield Municipal Court of the Superior Court
of New Jersey on 27 July 2006 and concluded with a not
guilty finding in favor of Edward J. Mierzwa. On 17 April
2015, the Honorable James J. Guida, Judge for the Superior
Court of New Jersey vacated the No Contact Order with
regard to this matter.
29. On 11 May 2006, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(c) PDP was signed against
Edward J. Mierzwa by Complainant, Diane Gaffney; on 18
May 2006, said criminal complaint was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. S-2006-00381-0221. An Arrest
Warrant was issued on 18 May 2006, prior to the
complaint being served upon Edward J. Mierzwa, resulting
in another wrongful incarceration in the Bergen County
[NJ] Jail. Excessive bail was set at $10000 no 10%,
necessitating the services of a Bail Bondsman resulting in
out-of-pocket fees of $780.
Appendix U
104

A trial was held in the Garfield Municipal Court of the
Superior Court of New Jersey on 27 July 2006 and
concluded with a finding of not guilty in favor of Edward J.
Mierzwa. On 17 April 2015, the Honorable James J. Guida,
Judge for the Superior Court of New Jersey vacated the No
Contact Order with regard to this matter.
30. On 26 June 2006, a criminal complaint was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. S-2006-00413-0221. A trial was
held in the Garfield Municipal Court of the Superior Court
of New Jersey on 27 July 2006 and concluded with: a
finding of guilty for harassment, N.J.S.A. 2C:33-2(a); Court
Costs and Fine(s) in the amount of $658.00 assessed
against Edward J. Mierzwa; and, incarceration for sixty
days including probation for one year. On 09 February
2007, upon the completion of trial de novo before the
Superior Court of New Jersey, Vicinage 2, Docket No. 06176, the decision was reversed in favor of Edward J.
Mierzwa. On 03 July 2007, a Stay of All Fines was
stipulated by Judge William Meehan of the New Jersey
Superior Court, Docket No. 06-176. On 28 January 2009,
the State of New Jersey Motor Vehicle Commission
wrongfully suspended New Jersey driving privileges
against Edward J. Mierzwa, citing non-payment of fines; on
23 February 2009, the State of New Jersey Motor Vehicle
Commission reinstated the New Jersey driving privileges
of Edward J. Mierzwa; incurring out-of-pocket costs of $11.
On 17 April 2015, the Honorable James J. Guida, Judge for
the Superior Court of New Jersey vacated the No Contact
Order with regard to this matter.
31. On 18 July 2006, a criminal complaint was filed against
Edward J. Mierzwa by Complainant, James Gaffney, State of
New Jersey Docket No. S-2006-00416-0221. The first trial
was held in the Garfield Municipal Court of the Superior
Court of New Jersey on 27 July 2006 and concluded with:
Appendix U
105

a guilty finding of harassment, N.J.S.A. 2C:33-4(c); Court
Costs and Fine(s) in the amount of $658.00 assessed
against Edward J. Mierzwa; and, incarceration for sixty
days including probation for one year. On 09 February
2007, upon the completion of trial de novo before the
Superior Court of New Jersey, Vicinage 2, Docket No. 06176, the decision of the Lower Court was affirmed. On 09
March 2007, Edward J. Mierzwa was Ordered to report to
the Bergen County [NJ] Probation Department on 21
March 2007, Case No. 55315. The probation commenced
on 09 February 2007 for a mandated period of two years.
On 10 April 2007, upon appeal before the Superior Court
of New Jersey 0 Appellate Division, Docket No. A-382306T5, matters were remanded for a new trial. On 03 July
2007, a Stay of All Fines was stipulated by Judge William
Meehan of the New Jersey Superior Court, Docket No. 06176. On 28 January 2009, the State of New Jersey Motor
Vehicle Commission wrongfully suspended New Jersey
driving privileges against Edward J. Mierzwa, citing non­
payment of fines; on 23 February 2009, the State of New
Jersey Motor Vehicle Commission reinstated the New
Jersey driving privileges of Edward J. Mierzwa; incurring
out-of-pocket costs of $11. Another trial was held in the
Municipal Court for Vicinage 2 of the Superior Court of
New Jersey commencing on 27 August 2009 and concluded
with a guilty finding on 10 September 2009. Another trial
de novo followed in the Superior Court of New Jersey 0
Vicinage 2, Docket No. 09-097; on 15 March 2010, the
findings of the Lower Court were affirmed and concluded
with: a guilty finding of harassment, N.J.S.A. 2C:33-4(c);
Court Costs and Fine(s) in the amount of $508.00 assessed
against Edward J. Mierzwa. On 03 June 2011, upon appeal
before the Superior Court of New Jersey 0 Appellate
Division, Docket No. A-3455-09T2, matters were
remanded for another trial.
Appendix U
106

On the hearing date of 25 April 2012, the case was
disposed in favor of Edward J. Mierzwa. On 17 April 2015,
the Honorable James J. Guida, Judge for the Superior Court
of New Jersey vacated the No Contact Order with regard to
this matter.
32. On 28 August 2006, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(a) PDP; was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. 0221-SC-005344. A trial was held
in the Municipal Court for Vicinage 2 of the Superior Court
of New Jersey commencing on 27 August 2009 and
concluded with a finding of not guilty on 10 September
2009. On 17 April 2015, the Honorable James J. Guida,
Judge for the Superior Court of New Jersey vacated the No
Contact Order with regard to this matter.
On 06 October 2006, a criminal complaint was filed
33.
against Edward J. Mierzwa by Complainant, Diane Gaffney,
State of New Jersey Docket No. 0221-SC-005383. A trial
was held in the Municipal Court for Vicinage 2 of the
Superior Court of New Jersey commencing on 27 August
2009 and concluded with a finding of guilty on 10
September 2009. A trial de novo followed in the Superior
Court of New Jersey 0 Vicinage 2, Docket No. 09-097; on
15 March 2010, the findings of the Lower Court were
affirmed and concluded with: a guilty finding of
harassment, N.J.S.A. 2C:33-4(a) PDP; Court Costs and
Fine(s) in the amount of $308.00 assessed against Edward
J. Mierzwa. On 03 June 2011, upon appeal before the
Superior Court of New Jersey 0 Appellate Division, Docket
No. A-3455-09T2, matters were remanded for another
trial. On the hearing date of 25 April 2012, the case was
disposed in favor of Edward J. Mierzwa. On 17 April 2015,
the Honorable James J. Guida, Judge for the Superior Court
of New Jersey vacated the No Contact Order with regard to
this matter.
Appendix U
107

,

34. On 26 November 2006, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(a) was filed against Edward J.
Mierzwa by Complainant, Diane Gaffney, State of New
Jersey Docket No. 0221-SC-005279. The complaint was
never served upon Edward J. Mierzwa. A trial was held in
the Municipal Court for Vicinage 2 of the Superior Court of
New Jersey commencing on 27 August 2009 and concluded
with a finding of not guilty on 10 September 2009.
35. On 27 January 2007, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(c) was filed against Edward J.
Mierzwa by Complainant, James Gaffney, State of New
Jersey Docket No. 0221-SC-005696. A trial was held in the
Municipal Court for Vicinage 2 of the Superior Court of
New Jersey commencing on 27 August 2009 and concluded
with a finding of not guilty on 10 September 2009. On 17
April 2015, the Honorable James J. Guida, Judge for the
Superior Court of New Jersey vacated the No Contact Order
with regard to this matter.
36. On 06 March 2007, a criminal complaint citing
harassment, N.J.S.A. 2C:33-4(a) PDP was filed against
Edward J. Mierzwa by Complainant, Diane Gaffney, State of
New Jersey Docket No. 0221-SC-005712. A trial was held
in the Municipal Court for Vicinage 2 of the Superior Court
of New Jersey commencing on 27 August 2009 and
concluded with a finding of not guilty on 10 September
2009. On 17 April 2015, the Honorable James J. Guida,
Judge for the Superior Court of New Jersey vacated the No
Contact Order with regard to this matter.
37. On 10 April 2007, based upon statements made by
James Gaffney, a criminal complaint citing Contempt of
Judicial Order, N.J.S.A. 2C:29-9(a) Fourth Degree and
Harassment, N.J.S.A. 2C:33-4(e) Fourth Degree was filed
against Edward J. Mierzwa by Complainant, Police Officer
Ronald Bohannon, Badge No. 165 of the City of Garfield
[NJ] Police Department, State of New Jersey Docket No. WAppendix U
2007-000157-0221.
108

On 11 April 2007, a wrongful incarceration commenced at
the Bergen County [NJ] Jail, ending on 17 May 2007, for a
total of thirty-six days; excessive of bail $10000 no 10%
was set for each charge. During the incarceration period,
Bergen County [NJ] Sheriff Department Officer Joe Doe,
Badge No. Unknown caused a frivolous complaint of
Harassment While Imprisoned N.J.S.A. 2C:33-4(e), to be
signed against Edward J. Mierzwa, being penalized with a
harsh jail cell "Lock In"; for reason that a pillow was not
issued upon intake and polite inquiries were disregarded
for nine days by Bergen County [NJ] Sheriff Department
Officer Joe Doe, Badge No. Unknown. On 19 April 2007, the
assistance of the State of New Jersey, Office of the Public
Defender was necessitated; fees incurred $2083.17 in
total. On 09 May 2007, a bail reduction hearing was held
in the Superior Court of New Jersey, Vicinage 2, resulting
in adjusted cash bail of $1000 plus filing fee of $30; posted
by wife, Patricia A. Mierzwa. On 09 May 2007, Edward J.
Mierzwa appeared at the Superior Court of New Jersey,
Vicinage 2 bail reduction hearing wearing prison
garments, handcuffed together with other prisoners in
chains and leg shackles in full public display. On 07 June
2007, a Grand Jury of the Superior Court of New Jersey
indicted Edward J. Mierzwa, charged with Contempt of
Judicial Order, N.J.S.A. 2C:29-9(a]; matters were referred
to the Criminal Division of the Superior Court of New
Jersey, Docket No. S-1008-07; a No Contact Order was
signed on 10 December 2007; shortly thereafter, all
indictable matters were dismissed by Order signed on 15
January 2008. On 17 April 2015, the Honorable James J.
Guida, Judge for the Superior Court of New Jersey vacated
the No Contact Order with regard to this matter. State of
New Jersey Identification No.518951D and Federal Bureau
of Investigation No.800625KC4 remain permanently
assigned to Edward J. Mierzwa.
Appendix U
109

38. On 31 May 2007, a criminal complaint for harassment,
citing N.J.S.A. 2C:33-4(c), was filed against Edward J.
Mierzwa by Complainant, Diane Gaffney, State of New
Jersey Docket No. 0221-SC-005842. The complaint was
never served upon Defendant; copy of said complaint was
obtained on 07 August 2007 during Discovery for matters
on appeal before the Superior Court of New Jersey,
Appellate Division, Docket No. A-3823-06T5. A trial was
held in the Municipal Court for Vicinage 2 of the Superior
Court of New Jersey commencing on 27 August 2009 and
concluded with a not guilty finding on 10 September 2009.
On 17 April 2015, the Honorable James J. Guida, Judge for
the Superior Court of New Jersey vacated the No Contact
Order with regard to this matter.
39. On 23 July 2007, a criminal complaint citing
aggravated assault with deadly weapon, N.J.S.A. 2C:121(b)(2) was filed against Edward J. Mierzwa by
Complainant, Diane Gaffney, State of New Jersey Docket
No. S-2007-0270-0221. A Grand Jury of the Superior Court
of New Jersey did not indict Edward J. Mierzwa, a no bill. A
trial was held on a downgraded charge citing improper
behavior, N.J.S.A. 2C:33-2(a) in the Municipal Court for
Vicinage 2 of the Superior Court of New Jersey
commencing on 27 August 2009 and concluded with a not
guilty finding on 10 September 2009.
40. On 17 December 2007, a criminal complaint for
harassment, citing N.J.S.A. 2C:33-4(c), was filed against
Edward J. Mierzwa by Complainant, James Gaffney, State of
New Jersey Docket No. 0221-SC-006584. The complaint
was never served upon named Defendant; copy of said
complaint was obtained on 11 June 2010 during Discovery
for matters on appeal before the Superior Court of New
Jersey, Appellate Division, Docket No. A-3455-09T2.
Appendix U

110

A trial was held in the Municipal Court for Vicinage 2 of the
Superior Court of New Jersey commencing on 27 August
2009 and concluded with a not guilty finding on 10
September 2009.
Count 1 - Claims Made upon Defendant, James Gaffney
41. Plaintiff hereby incorporates 1J20, If24, 1J31, 1J35,1J37,
TJ40 as though fully set forth herein.
42. The Prosecution of the aforementioned Criminal
Complaints, repeating 1J41, by the State of New Jersey was
commenced and instituted by Defendant, James Gaffney
based upon false statements and written communications;
all without basis or probable cause, in violation of 18 U.S.C.
§ 1001.
43. Repeating ^42, the Prosecution of said Criminal
Complaints was done with malice and brought vindictively
with intent to harm the Plaintiff through unlawful means
of Harassment, in violation of N.J.S.A. 2C:33-4.
44. Repeating 1J42, the court record of the Trial Date of 27
July 2006 of the Garfield Municipal Court of the Superior
Court of New Jersey will show that Defendant, James
Gaffney willfully and wantonly made an endless series of
False Statements against Plaintiff, in violation of 18 U.S.C.
§1001.
45. Repeating 1J42, the court record of the Trial Date
commencing on 27 August 2009 of the Municipal Court for
Vicinage 2 of the Superior Court of New Jersey will show
that Defendant, James Gaffney willfully and wantonly
made an endless series of False Statements against
Plaintiff, in violation of 18 U.S.C. § 1001.
46. At the trial of this action, Plaintiff will show that the
bringing and continuance of the actions referenced in 1J41
constituted malicious prosecution against Plaintiff caused
by Defendant, James Gaffney; and his conduct,
Appendix U
111

being willful and intentional, shows wanton disregard of
the rights of Plaintiff, warrants an award of punitive
damages to Plaintiff.
47. At the trial of this action, Plaintiff will show that as a
result of the malevolent conduct of Defendant, James
Gaffney, all has taken its toll upon the Plaintiff who
continues to suffer from: (a) trauma, stress, anxieties and
depression requiring psychiatric care; (b) injury to self
esteem and good name; (c) mental anguish from
experiencing three wrongful incarcerations totaling fiftyone days; (d) the exhaustive drain on meager personal
finances, time and energy for the purpose of obtaining a
fair hearing; (e) public humiliation and embarrassment
from the availability of public access to law enforcement
files and unrestricted jail records. Plaintiff has lost time
from the ordinary pursuits in his life and home, and that
the quality of his life was diminished by it, furthering the
great damage caused by Defendant, James Gaffney; thus,
warrants Plaintiff to a Judgment of compensatory &
punitive damages against Defendant, James Gaffney.
48. Wherefore, the Plaintiff, Edward J. Mierzwa demands
Judgment, in an amount to be determined at the time of
trial, against the Defendant, James Gaffney together with
lawful interest and costs of suit, also the Plaintiff prays for
such further or other relief as the nature of the case may
require, and as may be agreeable to equity and good
conscience.
Count 2 - Claims Made upon Defendant, Diane Gaffney
49. Plaintiff hereby incorporates 1J21,1f25,1J26,If2 7,1J28,
1J29, f[30, ]J32,1J33, TJ34,1J36,1f38,1J39 as though fully set
forth herein.

Appendix U
112

50; The Prosecution of the-aforementioned Criminal
Complaints, repeating 1J49, by the State of New Jersey was . •
commenced and instituted .by Defendant, Diane Gaffney, 1
based upon false statements and written-communications; ■
all without basis or probable cause; in violation of 18 U.S.C.§ 1001.; t
51! Repeating" ^[50,’the /Prosecution" of/said’ Criminal
Complaints was done with malice and brought vindictively'
with intent to'harm the Plaintiff through unlawful means
of Harassment, in violation of N.J.S.A. 2C:33-4.'
l

'

vS V i . v' U ' (

1 .■

«

52. Repeating 1J50, the court record of the Trial Date.of 27
July 2006 of the Garfield Municipal Court of the Superior
Court off New Jersey will show that Defendant, Diane
Gaffney willfully and wantonly made an endless series of
False Statements against Plaintiff, in violation of 18 U.S.C.
§ 100T. :
■'
' ’ •'1 ki‘ ’ v
‘
4

<

* \ i

53. Repeating 1J50, the court record .of the Trial Date
commencing on 27 August 2009 of the Municipal Court for
Vicinage 2 of the Superior Court of New Jersey will show
that Defendant, Diane Gaffney willfully and wantonly made
an endless series of False Statements against Plaintiff, in
violation of 18 U.S.C. § 1001?'° ; ' ' ’ ” '
' r
54, At the trial of this action, Plaintiff will show that the
bringing and continuance of theTactions referenced in i[49
constituted riialicious prosecution'against Plaintiff caused
by Defendant; Diane'-Gaffney; and her conduct, being
willful arid intentional," shows wanton disregard of the
rights of Plaintiff, warrants an'award of punitive damages
to Plaintiff.
►

’

■

i 1

55. At the trial of this action, Plaintiff win show that as a
result of the’ malevolent "coriduct of Defendant Diane
Gaffney, all has taken its toll upon the Plaintiff who.
continues to suffer from:
Appendix U
113

63. Wherefore, the Plaintiff, Edward J. Mierzwa demands
Judgment, in an amount to be determined at the time of
trial, against the Defendant, Arkadiusz Dudek with lawful
interest and costs of suit, also the Plaintiff prays for such
further or other relief as the nature of the case may
require, and as may be agreeable to equity and good
conscience.
USDOJ Duty Forms, Citizen Complaint Forms, Letters to
USDOJ and Official Responses
64. On 29 March 2004, Plaintiff established contact with
the USDOJ regarding the onset of harassment by local law
enforcement personnel. A second episode of harassment
involved a driver of a vehicle with federal government
license plate identification. Exhibit A
65. On 19 April 2004, USDOJ responded that the matter
“refers to a State (of New Jersey) case and neither the
Attorney General nor the Department has jurisdiction over
State cases prosecuted by State and local authorities".
Exhibit B
66. On 11 October 2005, Plaintiff contacted the USDOJ Civil
Rights Division regarding harassment, police brutality and
retaliation for filing a federal complaint against local law
enforcement personnel. Exhibit C
67. On 01 November 2005, Plaintiff contacted the US
Attorney's Office, District of New Jersey stating retaliation
for filing a federal complaint & police brutality resulting in
maiming, including supporting documents. Exhibit D
68. On 09 November 2005, USDOJ Civil Rights Division
responded that"... the information which you furnished is
insufficient to permit us to determine a possible violation
of federal criminal civil rights statutes...". Exhibit E
Appendix U
116

69. On 12 November 2005, Plaintiff contacted the USDOJ
Civil Rights Division regarding a follow up to the 01
November 2005 visit to the US Attorney's Office, District of
New Jersey. Plaintiff submitted a true copy of the
documents already tendered on 01 November 2005;
complained of lack of cooperation by authorities of the
State of NJ and retaliation for filing federal court
documents. Exhibit F
70. On 29 November 2005, USDOJ Civil Rights Division
responded that"... the information which you furnished is
still insufficient to permit us to determine a possible
violation of federal criminal civil rights statutes". Exhibit G
71.
On 04 January 2006, Plaintiff contacted the USDOJ
Inspector General expressing valid concerns regarding the
apathy of the USDOJ; Plaintiff cited malfeasance by the
New Jersey Judiciary and local law enforcement, in
addition to expressing concerns about personal safety.
Exhibit H
72. On 02 March 2006, USDOJ Civil Rights Division
responded that"... we have concluded that your complaint
does not involve a prosecutable violation of federal civil
rights statutes...". Exhibit I
73. On 31 May 2006, Plaintiff contacted the US Attorney’s
Office, District of New Jersey expressing concerns about
personal safety, the need for a meeting, complained about
retaliation & interference with USDC process, reiterating
the 01 November 2005 Citizen Duty Form & delivered
documents in support of allegations. Exhibit J
74. On 21 June 2006, Plaintiff contacted the US Attorney's
Office, District of New Jersey expressing concerns
regarding retaliation for filing complaint with USDC,

Appendix U
117

delivered documents in support of allegations including
transcript of recent USDC conference that demonstrated
retaliation and interference with USDC process by
municipal court judge, repeated fear for personal safety.
Exhibit K
75. At one point during the Fall of 2006, Plaintiff briefly
spoke with Tom Mahoney, tel. (973)645-2763, at the US
Attorney’s Office, District of New Jersey. No action taken
by USDOJ. Exhibit L
76. On 28 March 2007, Plaintiff contacted the USDOJ
Inspector General at the Field Office in New York, New
York expressing ongoing concerns with regard to the
apathy of USDOJ personnel, a call for a Special Prosecutor
to contend with the corruption of New Jersey officials, in
addition to expressing concerns about personal safety,
provided a detailed chronology & electronic “paper trail"
on a Datadisk. The format utilized was a calendar with the
overlap of related events noted with direct links to the
pertinent file using a computer mouse “click". Exhibit M
77. On 18 January 2008, Plaintiff contacted the USDOJ
Office of Professional Responsibilities expressing ongoing
concerns with regard to the apathy of USDOJ personnel
and the Office of the Inspector General, cited retaliation by
New Jersey officials regarding Police Misconduct Act.
Exhibit N
78. On 23 January 2008, Plaintiff contacted the US
Attorney's Office, District of New Jersey expressing
concerns regarding crisis point due to inaction by the
USDOJ, cited retaliation by New Jersey officials regarding
Police Misconduct Act. Exhibit O
79. On 11 March 2008, USDOJ Office of Professional
Responsibilities responded that "... we have found no
specific information suggesting that the personnel in this
matter exercised their discretion inappropriately.
Appendix U
118

Accordingly, we are taking no further action in this matter.
We regret we can be of no further assistance to you".
Exhibit P
80. On 09 February 2009, Plaintiff contacted the US
Attorney's Office, District of New Jersey and USDOJ Office
of Professional Responsibility citing more instances of
retaliation and harassment by New Jersey officials for
pursuing lawful USDC activity. Exhibit Q
81. On 17 February 2010, Plaintiff visited the US Attorney's
Office, District of New Jersey with concerns regarding
personnel of the New Jersey Judiciary interfering with
Plaintiffs access to court records, in addition to ongoing
retaliation for pursuing legitimate USDC activity. Exhibit R
82. On 24 February 2010, Plaintiff visited the US
Attorney's Office, District of New Jersey to recap concerns
regarding personnel of the New Jersey Judiciary
interfering with Plaintiffs access to court records,
providing updates to previous visit, in addition to
expressing concerns regarding ongoing retaliation for
pursuing USDC activity. Exhibit S
83. On 08 October 2010, Plaintiff visited the US Attorney’s
Office, District of New Jersey to reiterate concerns
regarding personnel of the New Jersey Judiciary
interfering with Plaintiffs access to court records.
Exhaustive documentation was tendered in support of
Plaintiffs claims. Exhibit T
84. On 21 October 2010, Plaintiff briefly spoke with
Michael Gaudier of the US Attorney’s Office, District of New
Jersey. No USDOJ action taken; Mr. Gaudier suggested
researching the Freedom of Information Act on the
Internet. Exhibit U

Appendix U
119

Count 5 - Claims Made upon Defendant(s), USA, John Doe
and Jane Doe
85. Plaintiff hereby incorporates 1J01 and If 64 through 1J84
as though fully set forth herein.
86. The Deprivation of Rights gives rise to Plaintiff claims
pursuant to 42 U.S.C. § 1983. The Constitution guarantees
the citizenry of the United States equal protection of the
laws and the right to counsel for representation in a
tribunal characterized as neutral with the unwavering
commitment to uphold the laws of the land, all for the
purpose of ensuring justice for all. Under the color of law
and authority, errant personnel of the Superior Court of
New Jersey and the Office of the Attorney General for the
State of New Jersey exercised criminal abuse of authority
directed against the Plaintiff, for the purpose of covering
up a premeditated police brutality incident occurring on
10 October 2005; improprieties were omnipresent for all
times relevant, ending on the final trial date of 25 April
2012. This vendetta towards the Plaintiff was relentlessly
pursued by other Defendants named in this action; abuse
of process was prevalent, twenty-two unfounded criminal
actions H[20 thru 1J40) were volleyed for the purpose of
instilling fear, intimidation and inflicting severe emotional
distress upon the Plaintiff. The record will show that the
Municipal Court Judge of the Superior Court of New Jersey
never advised Plaintiff of the right to assigned counsel at
public expense, as per New Jersey Court Rule 7:3-2.
Throughout the proceedings, Plaintiff was barred from
researching pertinent case files and sound recordings of
the proceedings; this was brought to the attention of the
Administrative Office of the Courts, an ongoing
responsibility of the Chief Justice of the Supreme Court of
New Jersey, the highest court in the State of New Jersey.
Plaintiff remained barred from researching case files as the
discrimination continued.
Appendix U
120

The Office of the Clerk of the Supreme Court of New Jersey
refused to file papers in support of certification in the
matter of the Administrative Office of the Courts after the
Plaintiff was rebuffed by the Appellate Division of the
Superior Court of New Jersey. The inability and
unwillingness of the State of New Jersey to provide a
speedy trial in a fair and impartial tribunal caused the
Plaintiff needless emotional duress. Contrary to New
Jersey Court Rule 1:13-7, the first trial date of 27 July 2006
was past the sixty day prosecution mandate; the second
trial date of 27 August 2009 was further past the sixty day
prosecution mandate; and, the third trial date of 25 April
2012 was calendared upon remand of the Appellate
Division of the Superior Court of New Jersey. For reasons
all its own, the Appellate Division of the Superior Court of
New Jersey allowed the prosecution "multiple shots at the
apple", whereby an outright dismissal would be proper.
The malevolent conduct of the Superior Court of New
Jersey and the Prosecution by the State of New Jersey has
taken its toll upon the Petitioner who continues to suffer
from: (a] trauma, stress, anxieties and depression
requiring psychiatric care; (b) injury to one's self esteem
and good name; (c] mental anguish from experiencing
three wrongful incarcerations totaling fifty-one days; (d)
the exhaustive drain on meager personal finances, time
and energy for the purpose of obtaining a fair hearing; (e)
public humiliation and embarrassment from the
availability of public access to law enforcement files and
unrestricted jail records. It shocks the conscience that
prosecutors, judges and their support personnel engaged
in deliberate acts of Obstruction of Justice, U.S.C. 18 § 1961
and U.S.C. 42 § 1985, unashamedly compromised the Civil
Rights of the Plaintiff as guaranteed by the First, Fourth,
Fifth, Eighth, and Fourteenth Amendments, all for the
purpose of covering up a brutal beating of the Plaintiff by
three police officers.
Appendix U
121

87. For all times relevant, Defendant, United States of
America by and through its Department of Justice
employees Defendant(s), John Doe & Jane Doe, did owe
Plaintiff a duty, all within the breadth of its day to day
responsibilities, to enforce the Fourteenth Amendment
Civil Rights as guaranteed by the United States
Constitution. To the reasonably minded man, it would be
evident that the Judiciary and Prosecution for the State of
New Jersey somehow compromised the Civil Rights of the
Plaintiff. The legal department of Defendant, United States
of America, consisting of USDOJ employees Defendant(s),
John Doe and Jane Doe, did not want to see, hear or speak
evil of the Judiciary and Prosecution for the State of New
Jersey and its disregard for the New Jersey Civil Rights Act,
N.J.S.A. § 10:6-1 et seq.; it is not reasonable for Defendant,
United States of America and its Department of Justice
employees Defendant(s), John Doe & Jane Doe to believe
that their actions/inactions did not violate Plaintiffs
Constitutional Rights under the Sixth Amendment. As the
final guarantor of Plaintiffs Constitutional Rights;
Defendant, United States of America and its Department of
Justice employees Defendant(s), John Doe and Jane Doe
breached its responsibilities in every respect. The
Deprivation of Rights gives rise to Plaintiff claims pursuant
to 42 U.S.C. § 1983.
88. Defendant, United States of America by and through its
USDOJ employees acting within the scope of their official
duties, Defendant(s), John Doe and Jane Doe, did act
negligently and wrongfully on every occasion; and,
ultimately did fail the Plaintiff in its mission: (a) to enforce
the law and defend the interests of the United States
according to the law; (b) to ensure public safety against
threats foreign and domestic; (c) to provide leadership in
preventing crime; (d) to seek justice for those guilty of
unlawful behavior; (e) to ensure fair and impartial
administration of justice for all Americans. Appendix U
122

The negligent and wrongful acts of USDOJ employees,
Defendant(s), John Doe and Jane Doe, did proximately
cause immediate and long term injuries of emotional and
physical nature. In their individual, official and personal
capacities, claims are hereby made upon Defendant,
United States of America and its Department of Justice
employees Defendant(s), John Doe & Jane Doe for their
Negligence pursuant to Federal Tort Claims Act, 28 U.S.C. §
1346(b)(1). The Defendant, United States of America and
its Department of Justice employees Defendant(s), John
Doe and Jane Doe owe a duty of due diligence to all citizens
who are influenced by its decisions. Plaintiff was
endangered by the inactions of Defendant, United States of
America and its Department of Justice employees
Defendant(s), John Doe & Jane Doe. The standard of care
of aforesaid Defendants must be measured by the
established laws and regulations pursuant to which it
operates, by the standards it generates internally, and the
standards it imposes upon the targets of its enforcement
activities. To the extent that breaches of the duties of
Defendant, United States of America and its Department of
Justice employees Defendant(s), John Doe & Jane Doe is
considered discretionary, those breaches are nonetheless
actionable because decisions to adhere to acceptable
standards of conduct are not the type of economic, political
or social decisions that were meant to be protected by
Congress. Defendant, United States of America and its
Department of Justice employees Defendant(s), John Doe
& Jane Doe squandered the opportunity to investigate the
wrongful activities of Defendants, James Gaffney and Diane
Gaffney and the officials of the State of New Jersey. Plaintiff
cites the following statutes for his claims against
Defendant, United States of America and its Department of
Justice employees Defendant(s), John Doe & Jane Doe:
Appendix U
123

28 U.S.C. § 1331, Federal Question
28 U.S.C. § 1343(a), Deprivation of Civil Rights
28 U.S.C. § 1346(b)(1), USA as Defendant
42 U.S.C. § 1985, Conspiracy to Interfere with Civil Rights
42 U.S.C. § 1986, Action for Neglect to Prevent
42 U.S.C. § 1988, Proceedings in Vindication of Civil Rights
42 U.S.C. § 1983, Civil Action for Deprivation of Rights
18 U.S.C. § 241, Conspiracy Against Civil Rights
28 U.S.C. § 2672, Administrative Adjustment of Claims
28 U.S.C. § 2674, Liability of United States
28 U.S.C. § 2675, Disposition by Federal Agency as
Prerequisite; Evidence
28 U.S.C. § 2677, Compromise
89. At the trial of this action, Plaintiff will show that as a
result of the neglectful conduct of Defendant, United States
of America and its Department of Justice employees
Defendant(s), John Doe and Jane Doe, all has taken its toll
upon the Plaintiff who continues to suffer from: (a) trauma,
stress, anxieties and depression requiring psychiatric care;
(b) injury to self esteem and good name; (c) mental
anguish from experiencing three wrongful incarcerations
totaling fifty-one days; (d) the exhaustive drain on meager
personal finances, time and energy for the purpose of
obtaining a fair hearing; (e) public humiliation and
embarrassment from the availability of public access to
law enforcement files and unrestricted jail records.
Plaintiff has lost time from the ordinary pursuits in his life
and home, and that the quality of his life was diminished
by it, furthering the great damage caused by Defendant,
United States of America and its Department of Justice
employees Defendant(s), John Doe and Jane Doe; thus,
warrants Plaintiff to a Judgment of compensatory &
punitive damages against Defendant, United States of
America and its Department of Justice employees
Defendant(s), John Doe and Jane Doe.
Appendix U
124

90. Wherefore, the Plaintiff, Edward J. Mierzwa demands
Judgment, in an amount to be determined at the time of
trial, against the Defendant, United States of America and
its Department of Justice employees Defendant's}, John
Doe and Jane Doe, together with lawful interest and costs
of suit, to include awarding Plaintiff fees and costs to
Plaintiff s attorney, pursuant to 28 U.S.C. § 2412; also, the
Plaintiff prays for such further or other relief as the nature
of the case may require, and as may be agreeable to equity
and good conscience.
Jury Trial
91. Plaintiff respectfully requests that this trial be tried by
jury.
Certifications
92.1 hereby certify that the matter(s) referenced is not the
subject of any other court proceeding or arbitration
proceeding now pending or contemplated, and that no
other parties should be joined in this action.
93.1 hereby certify that the foregoing statements made by
me are true. I am aware that if any of the foregoing
statements made by me are willfully false, I am subject to
punishment.
Dated: 23 August 2017
By: /s/Edward J. Mierzwa, Plaintiff

Appendix U
125

/
I

./
y
1

No .

2
3

in

the

4
5

Supreme

Court

of the United States

6
7

in re

8
9

Edward J. Mierzwa

10

Petitioner

ll
12
13
14
15

Proof of

Service

16
17

I,

18

15 July 2020,

19

I have served the enclosed:

20

(2)

21

on each party to the above proceeding or that party's

22

counsel,

23

served,

24

above

25

Edward J.

Mierzwa do declare that

by

date,

as required by Supreme Court Rule 29,
(1)

Certificate of Compliance;

and

on this

on

every

depositing

documents

in

other
an

Writ of Certiorari;
(3)

person

envelope

the United

Proof of Service

required

to

containing

States mail

be
the

properly

I
i.

/
■>

!
1

addressed

2

prepaid.

to

each

of

them

with

first-class

postage

3
The names and addresses of those served are as follows:

4
5
6
7

Clerk, United States Supreme Court
One First Street, NE
Washington, District of Columbia 20543-0001
(1) Writ of Certiorari (forty booklets + 8.5 x 11 copy), mailed 7/13/2020
(2) Certificate of Compliance (forty copies + original), mailed 7/15/2020
(3) Proof of Service (original & two copies), mailed 7/15/2020

8

(4) Filing Fee in the amount of three hundred dollars ($300.00); mailed on Tuesday, 28 April 2020

9

Clerk, USCA for the Third Circuit
21400 US Courthouse • 601 Market Street
Philadelphia, Pennsylvania 19106-1790

10
11
12’
13
14
15
16
17
18
19
20

Solicitor General of the United States
950 Pennsylvania Avenue NW • Room 5614
Washington, District of Columbia 20530-0001
Also, hand carry to US Attorney/Newark, NJ on 7/15/2020

Piro, Zinna, Cifelli, Paris & Genitempo
360 Passaic Avenue ■ Nutley, New Jersey 07110
Attorney for: Arkadiusz Dudek
via hand carry on 7/15/2020

Diane Gaffney
49 Scudder Street * Garfield, New Jersey 07026-2557
Non-participating party
via hand carry on 7/15/2020

James Gaffney
60 Bloomingdale Avenue • Garfield, New Jersey 07026
Non-participating party
via hand carry on 7/15/2020

21

I declare under penalty of perjury that the foregoing is true and correct.

22
23

Executed on: 15 July 2020
24
25

Edward J. Mierzwa, Petitioner

<

<>

1

No .

2
3

in the

4
5

Supreme Court

of the United States

6
7

in re

8
9

Edward J. Mierzwa

10

Petitioner

11
12
13
14
15

Proof of

Service

16
17

I,

18

15 July 2020,

19

I have served the enclosed:

20

(2)

21

on each party to the above proceeding or that party's

22

counsel,

23

served,

24

above

25

Edward J.

Mierzwa do declare that

by

date,

as required by Supreme Court Rule 29,
(1)

Certificate of Compliance;

and

on this

on

every

depositing

documents

in

the

other
an

Writ of Certiorari;
(3)

Proof of Service

person

envelope

United

States

required

to

containing
mail

be
the

properly

i

1

addressed

2

prepaid.

to

each

of

them with

first-class

postage

3
The names and addresses of those served are as follows:

4
5
6
7

Clerk, United States Supreme Court
One First Street, NE
Washington, District of Columbia 20543-0001
(1) Writ of Certiorari (forty booklets + 8.5 x 11 copy), mailed 7/13/2020
(2) Certificate of Compliance (forty copies + original), mailed 7/15/2020
(3) Proof of Service (original & two copies), mailed 7/15/2020

8

(4) Filing Fee in the amount of three hundred dollars ($300.00); mailed on Tuesday, 28 April 2020

9

Clerk, USCA for the Third Circuit
21400 US Courthouse • 601 Market Street
Philadelphia, Pennsylvania 19106-1790

10
11
12
13
14
15
16
17
18
19
20

Solicitor General of the United States
950 Pennsylvania Avenue NW • Room 5614
Washington, District of Columbia 20530-0001
Also, hand carry to US Attorney/Newark, NJ on 7/15/2020

Piro, Zinna, Cifelli, Paris & Genitempo
360 Passaic Avenue ■ Nutley, New Jersey 07110
Attorney for: Arkadiusz Dudek
via hand carry on 7/15/2020

Diane Gaffney
49 Scudder Street • Garfield, New Jersey 07026-2557
Non-participating party
via hand carry on 7/15/2020

James Gaffney
60 Bloomingdale Avenue • Garfield, New Jersey 07026
Non-participating party
via hand carry on 7/15/2020

21

I declare under penalty of perjury that the foregoing is true and correct.

22
23

Executed on: 15 July 2020
24
.

25

Edward J. Mierzwa, Petitioner

Certificate of Compliance:

No.

Edward J. Mierzwa
Petitioner
vs.

Arkadiusz M. Dudek
Respondents]

As required by Supreme Court Rule 331.1(h], I certify the Petition for Writ of Certiorari
contains 2386 words, excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under perjury that the foregoing is true and correct.

Dated: 15 July 2020
Edward J. Mierzwa, Petitioner

l

Certificate of Compliance:

No.

Edward J. Mierzwa
Petitioner
vs.

Arkadiusz M. Dudek
Respondents]

As required by Supreme Court Rule 331.1(h], I certify the Petition for Writ of Certiorari
contains 2386 words, excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d].
I declare under perjury that the foregoing is true and correct.

Dated: 15 July 2020
Edward J. Mierzwa, Petitioner

l

Certificate of Compliance:

No.

Edward J. Mierzwa
Petitioner
vs.
Arkadiusz M. Dudek
Respondents)

As required by Supreme Court Rule 331.1(h), I certify the Petition for Writ of Certiorari
contains 2386 words, excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under perjury that the foregoing is true and correct.

Dated: 15 July 2020
Edward J. Mierzwa, Petitioner

l

